<html>
<title> - U.S. POLICY ON BELARUS</title>
<body><pre>[Senate Hearing 117-32]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 117-32
 
                         U.S. POLICY ON BELARUS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE
                          
                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 9, 2021

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        



                  Available via http://www.govinfo.gov
                  
                  
                  
                            ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
 45-021 PDF             WASHINGTON : 2021                  
                  


                 COMMITTEE ON FOREIGN RELATIONS        

             ROBERT MENENDEZ, New Jersey, Chairman        
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
CHRISTOPHER MURPHY, Connecticut      MITT ROMNEY, Utah
TIM KAINE, Virginia                  ROB PORTMAN, Ohio
EDWARD J. MARKEY, Massachusetts      RAND PAUL, Kentucky
JEFF MERKLEY, Oregon                 TODD YOUNG, Indiana
CORY A. BOOKER, New Jersey           JOHN BARRASSO, Wyoming
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
CHRIS VAN HOLLEN, Maryland           MIKE ROUNDS, South Dakota
                                     BILL HAGERTY, Tennessee
                 Jessica Lewis, Staff Director        
        Christopher M. Socha, Republican Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  


                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page

Menendez, Hon. Robert, U.S. Senator From New Jersey..............     1

Risch, Hon. James E., U.S. Senator From Idaho....................     2

Fisher, Hon. Julie, United States Ambassador-Designate to the 
  Republic of Belarus, U.S. Department of State, Washington, DC..     4
    Prepared Statement...........................................     6

Fly, Jamie, President and CEO, Radio Free Europe/Radio Liberty, 
  Prague, Czech Republic.........................................    19
    Prepared Statement...........................................    21

Tsikhanouskaya, Sviatlana, Leader of the Democratic Opposition in 
  Belarus, Vilnius, Lithuania....................................    25
    Prepared Statement...........................................    27

                                 (iii)

  


                         U.S. POLICY ON BELARUS

                              ----------                              


                         WEDNESDAY, JUNE 9, 2021

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m. in 
room SD-106, Dirksen Senate Office Building, and via Webex, 
Hon. 
Robert Menendez, chairman of the committee, presiding.
    Present: Senators Menendez [presiding], Cardin, Shaheen, 
Coons, Murphy, Kaine, Markey, Van Hollen, Risch, Johnson, 
Romney, Portman, Paul, and Young.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. Last week a Belarusian opposition activist 
attempted suicide in a courtroom by stabbing himself in the 
neck with a pen. Covered in blood, his jailers fumbled for the 
keys to his courtroom cage. The absolute horror of this one 
incident exemplifies the desperation of an opposition movement 
constantly under lethal threat from a regime dead set on 
staying in power.
    This is the dictatorial regime of Alexander Lukashenka. 
This is the harsh brutality faced by the Belarusian people 
every day. Since attempting to steal the presidential election 
in August of 2020, the Lukashenka regime's oppression has grown 
exponentially. Hundreds of courageous political prisoners 
populate Belarusian jails. Several have been killed. Despite 
this pressure, the people of Belarus continue to turn out, 
standing up for their rights.
    The repressive reach of this regime came into sharp relief 
3 weeks ago when Raman Pratasevich and Sofia Sapega were 
arrested, victims of a hijacking ordered by the state. The 
Biden administration has rightfully made support for human 
rights the centerpiece of its foreign policy. How we respond to 
Belarus will send a message not only to the regime in Minsk, 
but to autocrats around the world.
    This is a critical test, one the United States must pass. 
The United States will pass this test by leading the 
international community in human rights and democracy, by 
leading an international sanctions effort, leading by clearly, 
publicly, and frequently expressing solidarity with the 
democratic opposition and the people of Belarus.
    Ultimately, a democratic Belarus is up to its people to 
determine and to achieve. That is their sovereign 
responsibility. But the United States has also a responsibility 
to maintain pressure on the regime, a responsibility to live up 
to the vision set by the Biden administration, and that starts 
by taking a few key steps.
    First, sanctions. The U.S. re-imposition of sanctions on 
nine Belarusian entities is a welcome development, but it did 
little to change Lukashenka's calculus. Working with Europe, 
the Administration should impose sanctions on the Belarusian 
state bank, Belarusian sovereign debt, and the energy and 
potash industries. It is time to increase the pressure.
    Second, we need to stand with the opposition in Belarus. I 
appreciate that members of our committee--Senators Shaheen, 
Portman, and Murphy--met with the opposition in Vilnius last 
week. Lukashenka needs to see over and over that the 
international community does not see him as legitimate, full 
stop. To that end, Belarusian opposition leadership should be 
invited to the G7 summit in the United Kingdom next week. We 
should never pass up an opportunity to express solidarity with 
these courageous activists.
    Finally, we need to see a robust investigation and a 
focused set of penalties in response to the hijacking of the 
May 23 Ryanair flight. A lackluster response will send a 
crystal-clear signal to autocrats in every corner of the world: 
It is open season on democratic activists abroad; go ahead, 
target at will. The Kremlin has already seized the initiative 
and last week began forcing activists off planes for arrest. 
Since May 23, we have heard a lot of rhetoric, but little 
action.
    I welcome the measures to block Belarusian flights into 
Europe, and the EU should consider blocking Belarusian ships 
from its ports. A weak response will only welcome continued 
aggression.
    Alexander Lukashenka is often called the last dictator in 
Europe, but unfortunately he is not. Vladimir Putin is sitting 
right next door, constantly exerting pernicious influence 
across the region. As the Belarusian activist tried to commit 
suicide in Minsk last week, Putin took Lukashenka out for a 
yacht cruise on the Black Sea. The Russian leader sees 
opportunity.
    So I look forward to hearing from Ambassador Fisher on how 
the Department assesses this relationship and how we can work 
to ensure that Putin does not gain further advantage in the 
region. The people of Belarus deserve a chance to live in a 
democratic society. They have sacrificed greatly. Some have 
paid the ultimate sacrifice, and hundreds sit in jail as 
political prisoners.
    I hope that this hearing does two things. I hope that it 
sends a clear message of solidarity to the Belarusian people. 
Second and most importantly, I want this hearing to advance 
real policy options for the United States and our allies in 
Europe.
    With that, let me recognize the ranking member, Senator 
Risch, for his remarks.

               STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Thank you, Mr. Chairman.
    Last year on August 9, a Belarusian election was stolen 
from its people. Alexander Lukashenka, who has ruled Belarus 
with an iron fist since 1994, has reacted violently to 
challengers. Despite brutal repression, the citizens of Belarus 
have spent the past year peacefully protesting the 
authoritarian regime in an effort to restore the proper results 
of the election.
    The United States has followed the events in Belarus 
closely and has worked to support those who stand for freedom 
and democracy. We have imposed sanctions on Belarusian 
officials who are responsible for violence, repression, and 
election fraud. And we continue to work with our European 
partners to increase pressure on Lukashenka's regime.
    I am very glad to see Ambassador Julie Fisher with us 
today, although she has not yet been able to visit her post in 
Minsk due to the Belarusian Government's refusal to grant her a 
visa. Ambassador Fisher has been working diligently to fulfill 
her duties both by coordinating the embassy from afar and by 
working with our allies in the region and the exiled opposition 
groups that strive to bring democracy and the rule of law to 
Belarus.
    Madam Ambassador, I hope to hear from you about the current 
bilateral relationship, as well as the ways in which Putin is 
helping to prop up Mr. Lukashenka.
    From Ms. Tsikhanouskaya, the likely winner of the 2020 
Belarusian presidential election, I look forward to hearing 
about her plans to take Belarus forward. As leader of the 
opposition movement, she has persevered despite intense 
persecution by Lukashenka's regime.
    I am also very glad that we have this chance to talk with 
Jamie Fly, President and CEO of Radio Free Europe/Radio 
Liberty, about the media situation in Belarus. Jamie is an 
expert in European affairs, human rights, global media, and 
disinformation campaigns by global adversaries. In addition, he 
is no stranger to our committee, having served as national 
security advisor to Senator Rubio for more than 4 years.
    There have long been restrictions on the press in Belarus, 
but Lukashenka has recently tightened his grip and grown bolder 
in his crackdown on press organizations and independent 
journalists who seek to hold him accountable. Lukashenka's 
Government has passed Draconian laws aimed at silencing the 
populace. Journalists have had their offices and homes raided 
and have been arrested, tortured, and even killed. Several RFE/
RL journalists are in Lukashenka's prisons.
    Just a few weeks ago, the world watched the shameless 
kidnapping of a journalist when Belarusian authorities forcibly 
diverted his commercial flight to land in Minsk so they could 
carry out his arrest. Persecution of the free press is only a 
part of the oppression that Belarusians face under Lukashenka's 
illegitimate rule. This time last year, Lukashenka let it be 
known that he was not going to play fair in the election. 
Belarusian authorities began with arresting opposition 
activists and candidates, notably Ms. Tsikhanouskaya's husband, 
and protests rose up around the country. Hundreds of thousands 
of Belarusians participated in peaceful demonstrations in the 
run-up to the August elections and were met with brutal 
violence from the authorities. More recently, he legalized use 
of lethal force against protesters and banned most Belarusians 
from leaving the country.
    For more than 25 years Lukashenka has run Belarus as his 
personal dictatorship. In contrast to the democratic progress 
made by Belarus' neighbors, Lukashenka has been able to operate 
outside of the international standards due to the support he 
receives from the only other European autocrat worse than he 
is, Vladimir Putin.
    With Putin's support and by his example, Lukashenka 
believes he can rule with impunity. I look forward to hearing 
from our witnesses today on how we can bring that to an end.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Risch.
    We will now turn to Ambassador Julie Fisher. Ambassador 
Fisher was confirmed by the Senate in December of last year and 
has provided an essential link to the Belarusian democratic 
opposition.
    We welcome you back to the committee and look forward to 
hearing the Administration's views on our policy moving 
forward. Your full statement will be included in the record. I 
would ask you to summarize your remarks in about 5 minutes or 
so, so that we can have an opportunity to have a conversation 
with you.
    Ambassador.

   STATEMENT OF HON. JULIE FISHER, UNITED STATES AMBASSADOR-
DESIGNATE TO THE REPUBLIC OF BELARUS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Fisher. Chairman Menendez, Ranking Member Risch, 
distinguished members of the committee, thank you for inviting 
me today to discuss our policy in Belarus.
    Guided by the Belarus Democracy Act, the United States has 
consistently supported a free, independent, and democratic 
Belarus. I would like to start by thanking Chairman Menendez 
and Ranking Member Risch for this committee's sustained 
commitment to Belarus' future. In particular, Senator Shaheen's 
recent visit to Vilnius, together with Senators Portman and 
Murphy, and this hearing itself are evidence of the high 
priority placed by the Congress on Belarus.
    Ten months ago, I appeared before this committee. That was 
August 5, 4 days before the fraudulent August 9 election and 
the subsequent brutal crackdown on democratic activists that 
ensued; 4 days before the world would be captivated by images 
of 100,000 Belarusians peacefully protesting on the streets of 
Minsk; 4 days before everything changed not just inside 
Belarus, but beyond its borders in the heart of Europe, with 
significant repercussions for European security.
    Despite the oppression, the violence, and the turmoil that 
followed, the events of the past year provide glimmers of hope. 
A new generation of brave Belarusians, with courageous women at 
the forefront, have emerged. They represent a Belarus 
determined to chart its own path. They represent a Belarus in 
which wearing a red and white dress, hanging a flag, or playing 
a particular song will not result in torture, forced 
confessions, or even death.
    Take, for example, Mrs. Sviatlana Tsikhanouskaya, from whom 
you will hear later today. Mrs. Tsikhanouskaya stood defiantly, 
together with Maria Kalesnikava and Veronika Tsepkala, to 
compete in an election and inspire the world. Forced to flee to 
neighboring Lithuania, which has generously offered her and 
thousands of others safe haven, Mrs. Tsikhanouskaya quickly 
emerged as the leader of the democratic opposition and the face 
of a new Belarus.
    Consider as well journalist Raman Pratasevich. During my 
recent trip to Vilnius, Raman's dedication and his selflessness 
in the face of very real threats from a ruthless dictator were 
on display. Raman's arrest after the forced diversion of 
Ryanair flight 4978 is further evidence--as if the world needed 
it--of the regime's utter disregard for international norms and 
reflects the new lows to which Lukashenka and his foreign 
backers are willing to sink.
    Belarus under Lukashenka will never realize its full 
potential. Lukashenka and his cronies hold more than 470 
political prisoners, among them journalists, bloggers, artists, 
teachers, everyday citizens, not masters of intrigue, many of 
whom report squalid conditions and physical abuse. They put the 
nations bravest and brightest on public display in cages, like 
Belsat reporters Katsyaryna Andreyeva and Daria Chultsova.
    Thinking only of himself and his cronies, Lukashenka has 
been steadily ceding Belarus' sovereignty to Russia for 
personal gain since he assumed power more than a quarter 
century ago. The Belarusian people are rightly concerned about 
the Kremlin's desire to erode their sovereignty and 
independence, as are we. For as long as Lukashenka remains in 
power, Belarus faces absorption into Russia under the Union 
State agreement, with dire consequences for the people of 
Belarus, for their voice, their agency, their culture, and 
their identity.
    Mr. Chairman, as you said, the people of Belarus deserve 
better. They deserve a future in which Daria and Katsyaryna and 
others like Ihar Losik can participate in the governance of 
their country without putting themselves and their families at 
risk.
    The United States will and must do its utmost to support 
those who seek to make that future a reality. And as I assured 
the committee last summer, we will not do so in any way that 
supports or enriches the regime nor endangers our shared 
security.
    In partnership with Poland and Lithuania and the European 
Union, the United States has sought to galvanize a broad 
coalition of like-minded governments, civil society 
representatives, and Belarusians in exile to effect positive 
change. At the OSCE and the U.N., we launched fact-finding 
missions into human rights abuses, and with partners like the 
European Union, the United Kingdom and Canada, we coordinated 
and continue to coordinate on new rounds of sanctions to 
promote accountability for those abuses.
    As announced by the White House on May 28, additional 
sanctions are coming, and they are coming soon.
    By imposing visa restrictions, the State Department has 
made it clear that individuals responsible for stifling 
Belarusian democracy are not welcome in the United States. And 
at the same time we are strengthening our assistance to the 
people of Belarus.
    Since August we have identified over $20 million in 
additional assistance which aims to provide emergency support 
to civil society leaders forced to flee Belarus, to sustain 
grassroots voices within Belarus, to promote independent media, 
to document human rights violations, and to help those inside 
and outside Belarus to remain unified.
    Senators, Belarus is a country at a crossroads. What 
happens next will impact the lives of future generations, not 
just within its borders but across the European continent.
    I thank you for this opportunity today, and I look forward 
to your questions.
    [The prepared statement of Ambassador Fisher follows:]

             Prepared Statement of Ambassador Julie Fisher

    Chairman Menendez, Ranking Member Risch, distinguished Members of 
the Committee, thank you for inviting me today to discuss U.S. policy 
in Belarus.
    For the past three decades, the United States has consistently 
supported a free, independent, and democratic Belarus. The 2006 
enactment and subsequent 2020 update to the Belarus Democracy, Human 
Rights, and Sovereignty Act has guided U.S. policies for more than a 
decade. I would like to start by thanking you, Chairman Menendez, and 
Ranking Member Risch, for this Committee's sustained interest in 
Belarus' future. Senator Shaheen's recent visit to Vilnius, together 
with Senator Portman and Senator Murphy, and this hearing itself are 
evidence of the high priority placed by the Congress on this nation, 
Belarus, that yearns for freedom.
    Ten months ago, I appeared before this Committee seeking 
confirmation as the first U.S. Ambassador to Belarus in over 12 years. 
That was August 5, 4 days before the fraudulent August 9 election and 
the subsequent violent crackdown on democratic activists that continues 
to this day. Four days before the world would be captivated by images 
of 100,000 Belarusians peacefully protesting on the streets of Minsk. 
Four days before everything changed not just for the people of Belarus, 
but for the center of Europe and our shared security.
    Despite the oppression, the violence, and the turmoil, that 
followed, the events of the past year give us hope. A new generation of 
brave Belarusians, with courageous women at the front, have emerged. 
They represent a Belarus determined to chart its own path. They 
represent a Belarus in which wearing a red and white dress, hanging a 
flag, or playing a particular song, will not result in torture, forced 
confessions, or even death. They represent a Belarus eager to seize the 
many opportunities that accompany democracies, regardless unprecedented 
internal repression from a vengeful regime and external political 
pressure from Russia.
    Take for example, Mrs. Svyatlana Tsikhanouskaya, from whom you will 
hear later today. When her husband Syarhei was arrested after emerging 
as a leading opposition candidate, Mrs. Tsikhanouskaya--an English 
teacher by training--stood defiantly together with Maria Kalesnikava 
and Veronika Tsepkala to galvanize their people and inspire the world. 
Forced to flee to neighboring Lithuania, which generously offered her 
and thousands of others safe haven, Mrs. Tsikhanouskaya quickly emerged 
as the leader of the democratic opposition, and the face of a new 
Belarus to the world.
    Consider as well, journalist Raman Pratasevich. During my most 
recent trip to Vilnius in April, I had the privilege of speaking with 
Raman. I was impressed by his dedication, his passion, and like so many 
others, his selflessness in the face of very real threats from a 
ruthless dictator. Raman's arrest after the forced diversion of Ryanair 
flight 4978 is further evidence--as if the world needed it--of the 
regime's utter disregard for international norms and human rights and 
reflects the new lows to which Lukashenka is willing to sink in order 
to eliminate any trace of dissent.
    And then there's Maria Kalesnikava, who was recognized by the State 
Department as one of the 2021 International Women of Courage this past 
March yet was not able to attend the ceremony because she languishes in 
a prison cell, charged with ``establishing and leading an extremist 
organization'' amongst other bogus charges.
    Belarus under Alyaksandr Lukashenka will never realize its full 
potential. His is a regime that continues to commit human rights 
violations and abuses. It holds at least 470 political prisoners--
journalists, bloggers, artists, teachers, everyday citizens--many of 
whom report squalid conditions and physical abuse, and the number 
continues to climb. It puts its best and brightest on public display in 
cages--like Belsat reporters Katsyaryna Andreyeva and Daria Chultsova--
rather than let them report objectively.
    Thinking only of himself and his cronies, Lukashenka has been 
steadily ceding Belarus' sovereignty to Russia for personal gain since 
he assumed power more than two decades ago. The Belarusian people are 
rightly concerned about the Kremlin's clear desire to erode Belarusian 
sovereignty and independence; as are we, our Allies, and our partners 
in the region. For as long as Lukashenka remains in power, Belarus is 
under threat of absorption into Russia under the Union State agreement, 
with dire consequences for the people of Belarus, their voice, their 
agency, their culture, and their identity.
    The people of Belarus deserve better. They deserve a future where 
people like Mrs. Tsikhanouskaya, Maria Kalesnikava, Ihar Losik, Darya 
Chultsova, Katsyaryna Andreyeva and Raman Pratasevich participate in 
the governance of their country without facing personal risks to do so
    In partnership with countries like Poland and Lithuania, the United 
States has sought to galvanize a broad coalition of likeminded 
governments, civil society representatives, and Belarusians in exile to 
effect positive change. At the OSCE and the U.N., we launched fact-
finding missions into human rights abuses, which raised the 
reputational costs of continuing repression for the Lukashenka regime 
and its Kremlin backers. Working with Latvia and other Allies we 
ensured a prestigious hockey championship was moved from Minsk. With 
partners like the EU, UK, and Canada, we have coordinated on new rounds 
of sanctions to promote accountability for human rights abuses. These 
efforts have in turn reinforced cooperation with key European Allies 
and reinvigorated old partnerships.
    We are not done by a long shot.
    As announced by the White House on May 28, additional sanctions are 
coming soon.
    The State Department has made it clear that specific individuals 
responsible for undermining Belarusian democracy--whether by violently 
suppressing peaceful protests or impinging upon media freedom--are not 
welcome in the United States by taking action to impose visa 
restrictions on over 120 such Belarusian and Russian individuals. And 
we keep adding to it as new information comes to light.
    At the same time, the U.S. Government is strengthening its 
assistance to the Belarusian people. Since August 2020, over $20 
million in additional regional and global State and USAID assistance 
has been identified to provide emergency support to civil society 
leaders forced to flee Belarus, to sustain grassroots voices within 
Belarus, promote independent media, document human rights violations, 
and help those inside and outside Belarus to speak with a unified 
voice.
    And pending congressional approval, the State Department will 
contribute $500,000 to the International Accountability Platform for 
Belarus. Tasked with working under the auspices of a United Nations 
Human Rights Council-mandated investigation, the Platform will collect 
and gather evidence on violations of international human rights law in 
Belarus to be used in future criminal investigations and prosecutions 
to hold perpetrators accountable for their crimes.
    Belarus is a country at a crossroads. What happens next will impact 
the lives of future generations, not just within its borders, but 
across the European continent.
    In closing, allow me to repeat something I told you last August, 
something that remains true today: we and our closest Allies and 
partners have an opportunity to make a lasting impact on Belarus. By 
working together in support of the Belarusian people's democratic 
aspirations, we are also making a lasting contribution to regional 
security and stability. It is quite simply the best way to advance our 
own security as well.
    Thank you for this opportunity to appear before you today. I look 
forward to answering your questions.

    The Chairman. Thank you, Ambassador, for those insights.
    We will start a series of 5-minute questions.
    I am glad to hear you say that more sanctions are coming. I 
do not believe in sanctions just for the sake of sanctions, but 
in this case there is a clear need for them.
    In order to impose sanctions on Belarus, the Administration 
is relying on Executive Order 13405 that was issued under the 
Bush administration in 2006. A lot has changed since then, 
including passage of the Belarus Democracy, Human Rights, and 
Sovereignty Act last year. Why has the Administration not 
issued a new executive order on Belarus sanctions, and when can 
we expect one?
    Could you put your microphone on, please?
    Ambassador Fisher. Sorry about that.
    The Chairman. It is okay.
    Ambassador Fisher. Thank you, Senator. Let me assure you 
that, as the White House statement indicated on May 28, we are 
working hard on a new executive order at this time. You are 
exactly right, 2006 was a long time ago. It was a very 
different world, and there is room for us to do an awful lot 
with a new executive order. That is an effort that is underway.
    Our goal remains that we are focused on promoting 
accountability for those individuals and entities who are 
responsible for or are complicit in the regime's violent 
repression of civil society and for those human rights abuses. 
So we will continue to bring new authorities and new tools of 
pressure to bear.
    We will raise the cost of the violence and the repression 
that the regime is inflicting----
    The Chairman. I am glad we are going to raise the cost. The 
question is how soon, because the more we wait, the more 
impunity takes place.
    Let me ask you, the Belarusian organization Nexta published 
an account of Lukashenka's corruption, ``Lukashenka: A Gold 
Mine.''
    Ambassador Fisher. Yes.
    The Chairman. What is your assessment of that report?
    Ambassador Fisher. Sir, I would say that the reports that 
we have seen, the information that has been gathered by Nexta 
has been incredibly valuable to us. We are focused on a new 
executive order on the earliest possible timeline. I can assure 
you that the interagency inside the Administration is working 
on this question every single day right now.
    The Chairman. Let me ask you this. If you think the report 
was of significant value, are there Magnitsky sanction measures 
that can be taken against enablers of the corruption with this 
regime?
    Ambassador Fisher. Sir, we have been very closely looking 
at exactly which authorities we can apply to a variety of 
individuals. I think there is an opportunity to apply Magnitsky 
sanctions.
    The Chairman. Can you share some specific figures within 
the regime that enable this corruption?
    Ambassador Fisher. Sir, I would be happy to follow up with 
you afterwards in terms of who I see as the targets in terms of 
who we envision in the next round. As we are working to 
finalize those questions, I think it would be a little 
premature to discuss individual targets.
    The Chairman. Okay. Well, I would love to have that in an 
appropriate setting.
    In her written testimony, Mrs. Tsikhanouskaya recommends 
that 24 Belarusian entities in the banking, oil, fertilizer, 
meteorology, and wood sectors be subjected to U.S. sanctions. 
This is her view, her testimony, which we will all hear in a 
little bit.
    Can I get your commitment that the Administration will 
review this list and seriously vet these entities for 
sanctions?
    Ambassador Fisher. Yes, sir, you can.
    The Chairman. I am very concerned about the burgeoning 
threats to freedom, democracy, and the rule of law from 
autocrats around the world, including the direct targeting of 
activists and journalists. You referred to the Belarusian 
regime's hijacking last month of the Ryanair flight in order to 
arrest journalist Raman Pratasevich as the starkest example. 
What is the status of this investigation, and what steps will 
the Administration take, both unilaterally and with our allies, 
since the hijacking to impose consequences on Lukashenka to 
deter other dictators from committing similar abuses? 
Otherwise, the open skies will not be open. They will be open 
for pursuing political activists, journalists, and those who 
are seen as a threat to some regime.
    Ambassador Fisher. Senator, I very much share your concerns 
about the need for a strong response to this. These are exactly 
the messages we cannot allow the dictators of the world to take 
from this incident.
    Specifically with regards to your question about the status 
of the investigation, I think we have seen the International 
Civil Aviation Organization take swift action. They have an 
investigation underway. We anticipate at least a preliminary 
report out of that process by the end of this month, and we 
will be tracking that very closely. We are working with our 
allies and partners who are most directly impacted by this 
flight, and that would be, of course, Greece as the origination 
point for this flight, Lithuania as the destination point, 
Ireland as the headquarters of Ryanair, and Poland as the 
country to which this subsidiary is registered, on all elements 
of a variety of investigations surrounding this incident.
    The Chairman. This is part of the interagency review in 
terms of what potential sanctions may take place?
    Ambassador Fisher. Yes, sir.
    The Chairman. Okay.
    Senator Risch.
    Senator Risch. Thank you.
    Ms. Fisher, I have read lots of reports about the 
relationship between Putin and Lukashenka. I would be really 
interested to hear your description of that.
    Ambassador Fisher. Thank you, Senator. Really, it is a very 
important question. Let me maybe start by talking about 
Lukashenka's relationship with Russia, if I might, and that is 
to say that over the quarter century since he has taken power, 
in my view Lukashenka has been ceding Belarus' sovereignty over 
that entire period. This is not something new. This has very 
much been a feature of his term as he has ruled Belarus.
    And what I have observed is that the people of Belarus are 
gravely concerned about Russia's support for Lukashenka's whims 
and deprivations; and as he imposes those on Belarus, Russia 
continues to provide support to a leader whose only motivation 
at this point is his own grip on power.
    I am deeply troubled by Russia's willingness to facilitate 
the regime's repressions and its attempts through the last 
months to normalize Lukashenka's extensive human rights abuses 
and violations through false equivalencies and their 
whataboutism.
    We find Russia's continued rhetorical, diplomatic, 
military, and financial support for the Lukashenka regime part 
of a consistent pattern on the Kremlin's part to ensure 
Belarus' dependency.
    Senator Risch. Thank you, I appreciate those thoughts. 
Based on your knowledge, what do you see as being the 
conditions or the events or scenarios where things change in 
Belarus?
    Ambassador Fisher. Senator Risch, I think the real question 
is what is it we all can do in the West that will help get the 
political prisoners out from behind bars so that there can be a 
dialogue at least to a new free and fair election. That is what 
Mrs. Tsikhanouskaya, from whom you will hear later, that is 
what she is calling for as the next steps.
    We have been working to apply pressure to Lukashenka to try 
to drive the regime into a dialogue. The costs of remaining 
outside of a dialogue have become quite high for him. We have 
not yet changed the calculus. We have not yet changed his 
decision-making calculations, but we will continue to add those 
costs. There can be no normalization. It is as if the regime 
believes a page will be turned and they can go back to building 
relations with the West when they have so clearly walked 
backwards from where they were 2 years ago in terms of the 
human rights situation.
    Senator Risch. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I understand we have Senator Cardin 
virtually.
    Senator Cardin?
    [No response.]
    The Chairman. Okay. While we wait for him, we will go to 
Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you very much, Ambassador Fisher, for all of your 
great work on what is happening in Belarus. As you pointed out 
in your opening statement, Senators Murphy, Portman and I had a 
chance to stop in Lithuania on our trip to Ukraine and Georgia 
last week and meet with Sviatlana Tsikhanouskaya, and I can 
tell you how impressed I think we all were with her courage, 
with the motivation of the opposition and their willingness to 
travel around Europe to build support for the opposition 
movement. It was particularly interesting to see the 
juxtaposition of that meeting and the picture that appeared in 
international newspapers of Lukashenka and Putin on Putin's 
yacht while they were incarcerating journalists and members of 
the opposition. The two of them were out having a good time on 
his yacht, obviously not at all concerned about what is 
happening with human rights in Belarus.
    I wonder, one of the things that we heard that was of 
concern to other countries in the region was this proposed 
union between Russia and Belarus. Can you talk about what you 
think the implications of that are?
    Ambassador Fisher. Thank you, Senator. The proposed Union 
State is a process, this idea of Russia and Belarus combining 
at a variety of different levels for a sort of supra-national 
association, and this is a process that has been underway 
between the two countries for two decades. It is not one that 
has moved quickly, nor is it one that has moved particularly 
transparently, and what is in it for each of the two countries 
is also not entirely clear.
    What I have observed is that Moscow has in every way taken 
advantage of Belarus' vulnerabilities as they have endured this 
dictatorship of Alexander Lukashenka, and they will continue to 
do so. They will continue to use Belarus for their own 
purposes, which leaves the people of Belarus with very little 
voice, very little agency in their own future. The question of 
what the people of Belarus want for their future is, of course, 
one of the most significant motivators for what took place last 
summer. It is the desire of the people of Belarus to have a 
voice in their future, and that is one of the pieces of the 
Union State that concerns me greatly, is what happens to them 
in that process.
    Senator Shaheen. Absolutely. And again, it is a concern 
that we have heard not just from the opposition leader but from 
others in the region.
    One of the things that I was also impressed with was the 
support from Lithuania, and they also mentioned Poland, in 
supporting the opposition leaders, many of whom are living in 
Lithuania now. Can you talk about what more we might do in the 
United States to support the efforts of those two countries as 
they work to support opposition leaders?
    Ambassador Fisher. Thank you. I think there is room for us 
to do an awful lot more with regards to both support of the 
democratic opposition outside of Belarus' borders, and there is 
also room for us to do more in coordination with our allies, 
our frontline allies, our partners in the region.
    Lithuania and Poland, as you note, are carrying an 
incredibly heavy burden as they host opposition elements, as 
they help to protect them. I would note that in Poland they 
have been hosting generations of opposition who have been 
forced to flee over the decades of Lukashenka's regime. And 
Lithuania, of course, is doing a tremendous amount, not only to 
welcome those who are fleeing persecution and repression but to 
keep them safe. This is an area where I think the United States 
can work very closely with our partners.
    I would also note, Senator, I know Ukraine was also a stop 
on your trip. There has been an awful lot of economic flight to 
Ukraine. A lot of technology folks have fled to Ukraine. We 
have seen a prominent journalist, an analytical observer, whose 
name was mentioned in the forced confession from Raman 
Pratasevich who felt that he had to leave Belarus.
    So I think it is important to recognize that we have three 
allies and an important partner, all of whom are significantly 
impacted by these events.
    Senator Shaheen. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, and thank you for your good work 
in this regard, and your trip.
    I understand that Senator Portman is about to make a grand 
entrance.
    Senator Portman is recognized.
    Senator Portman. Thank you, Mr. Chairman.
    And thank you, Ambassador. I appreciate your opening 
statement and the opportunity to hear some of the back and 
forth. I was privileged to go, as you know, to Lithuania last 
week with Senator Shaheen, Senator Murphy, and have a chance to 
debrief with the Lithuanians about what is going on in Belarus. 
You are not there because you cannot be there. We were not able 
to go there. But on the other hand, we were able to get some 
good input, including, as you know, from Ms. Tsikhanouskaya, 
who we are going to hear from in just a moment.
    I guess my biggest takeaway was the degree to which Russia 
is using Belarus as a staging ground, in essence, for their 
military, and the impact that has on the region, in particular 
the northern border of Ukraine. Ukraine already has an eastern 
border they have to defend, and Russia has recently sent over 
100,000 troops to that region, including equipment, which would 
indicate that they have designs to come back, since they left 
the equipment there. Now they have to worry about their 
northern border, as well.
    You talk a little about the Russian intentions in Belarus. 
I understand they have a couple of bases already, and they have 
asked for a third base. Talk a little bit about their military 
posture and what you see as the likely scenario with regard to 
Russian involvement in Belarus.
    Ambassador Fisher. Thank you, Senator. And thank you again 
for taking part in the trip last week. It was so important to 
both the democratic opposition, to our allies, and to our 
efforts.
    In terms of Russia's role, particularly, as you mentioned, 
militarily, I would start by saying that, again, it is 
Lukashenka's willingness to increase dependency on Russia in 
every possible sphere that has brought him to the point of 
being in no position--really to barely having a say in what 
Russia would decide to do militarily in Belarus.
    There has been an integration of military and security 
forces over, again, the decades of his tenure. It is important 
to acknowledge that Russian troops in Belarus, that is not new. 
Russian troops have been in Belarus for a long time. The 
question is how many more.
    I would also acknowledge that this year is the year of the 
major Russian military exercise, ZAPAD, which we are watching 
very closely to see how this exercise will unfold, what kinds 
of troops and equipment move into Belarus, and how much of that 
leaves. The ZAPAD exercise is one that NATO in particular pays 
very close attention to, and we will continue to do that this 
year.
    Senator Portman. Can you confirm that Russia has requested 
another base in the country?
    Ambassador Fisher. Sorry?
    Senator Portman. Can you confirm that Russia has asked for 
another base in Belarus?
    Ambassador Fisher. I cannot confirm that, no.
    Senator Portman. That is what we heard in Lithuania, and I 
thought we heard it from both our U.S. ambassador and from the 
foreign minister.
    With regard to sanctions, we talked about the need for 
shifting to a more effective means of persuading Belarus to 
stop some of their malign activities, including obviously in 
response to the Ryanair jet incident. My question for you is do 
sectoral sanctions make more sense? And if so, which sectors 
would be most appropriate to be focused on, and what difference 
would it make?
    Ambassador Fisher. Thank you, sir. I think in a state-run 
economy, which 70 percent of Belarus' economy is controlled by 
the state; it is a very Soviet-style economy--I think it is 
important to acknowledge just how important sectoral sanctions 
can be to depriving the regime of finance and funding that is 
used to inflict violence on the people, and I believe that it 
is the clearest signal that we can send of our rejection of 
these tactics.
    So I believe a new executive order and the work that the 
White House has directed that is underway now, we are working 
through targets. It is very important as we work through this 
process that we take a very careful and thoughtful approach 
with regards to understanding the impact that we will have on 
the desired targets, that we understand the impact to the 
people of Belarus, who could feel the effects, and that we 
understand the impacts to American interests as well, and that 
of our allies and partners.
    So I would like to assure you that we are going through a 
very thoughtful process and that we are working through that 
with due speed and a sense of urgency.
    Senator Portman. Thank you.
    The Chairman. Thank you.
    Senator Cardin, I understand, is now with us virtually.
    Senator Cardin. Mr. Chairman, thank you very much.
    Let me thank the Ambassador.
    In addition to serving on the Senate Foreign Relations 
Committee, I also chair the U.S. Helsinki Commission, and we 
are going to have a meeting of the OSCE Parliamentary Assembly 
early next month. We expect a large U.S. participation in that.
    I will also be chairing a hearing with the Chair in Office, 
the Foreign Minister of Sweden.
    So my question to you, Madam Ambassador, is you talked 
about the OSCE. You talked about a multinational approach. What 
should we be asking from the OSCE to advance our interests in 
Belarus? Do you have specific suggestions as to what the OSCE 
can do more effectively in helping the people of Belarus?
    Ambassador Fisher. Thank you, Senator Cardin. For your 
awareness, we have really looked at the permanent council at 
the OSCE as the venue for delivering clear messages about how 
Belarus' authorities have failed to meet their international 
obligations. As you note, the Swedes, as Chairman in Office and 
Foreign Minister Linde, have played an incredibly active role 
in trying to create the conditions for dialogue and trying to 
bring the parties to the table.
    We have seen thus far insufficient results at the OSCE, 
largely because Lukashenka refuses to engage and has rebuffed 
the OSCE's efforts to facilitate the dialogue. Nonetheless, 
this is an effort that I continue to believe we should keep at 
and work in partnership with the Swedes and other participating 
states in the OSCE context.
    Senator Cardin. I thank you for that. If you have specific 
recommendations, the meeting will take place later. The hearing 
I think will be next week, but later this week we will have a 
chance to meet with parliamentarians.
    I just have a question. The protesters in Belarus are 
extremely brave people. They are out in great numbers 
protesting against their government. We have talked about 
sanctions against those that would violate the rights of the 
people of Belarus. I am concerned about their safety. Is there 
more aggressiveness that the international community can be in 
order to protect the safety of the protesters in Belarus?
    Ambassador Fisher. Sir, I absolutely share your concern 
about the safety of protesters. Who is a protester in Belarus 
these days is, again, somebody who dares to wear the colors red 
and white, or someone who hangs their laundry in a way that is 
unacceptable. A protester these days in Belarus is labeled with 
a terrorist or an extremist target. I do think there is room, 
sir, for us to do much more in terms of rejecting the use of 
these labels and not allowing Lukashenka and his regime to use 
these labels to then put international law enforcement tools to 
work against his opposition.
    I think this is an area we can explore more, and I would 
really be delighted to work with you and your team, sir, to 
explore what more we could accomplish both at the meeting next 
week and in the weeks and months ahead.
    Senator Cardin. And we have had bipartisan support here to 
minimize the use of red notices in regards to oppressive 
countries trying to get international cooperation in retaining 
and arresting people that are legitimately protesting and seek 
asylum.
    So, yes, we will very much look to you for advice as to how 
we can protect the people of Belarus. Our complaint is with the 
Government, not with the people, and we need to be selective in 
how we use our power and sanctions, but make it clear we are 
going to be tough against anyone who would violate 
international norms of human rights.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cardin.
    I understand that at the moment we do not have a Republican 
colleague seeking recognition, so we will go to Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman, for 
holding this hearing.
    Ambassador, thank you for your work. Thanks for your 
assistance to Senators Shaheen, Portman and I in getting ready 
for our trip.
    I was incredibly impressed by Mrs. Tsikhanouskaya and her 
team. The duress under which they are operating is just 
unfathomable, and I am glad to be exploring new ways that we 
can support them.
    You may have covered this in your prepared testimony but it 
maybe bears repeating. Lukashenka's claim is that the entire 
opposition movement is some U.S. front, or using Belarus to get 
at Putin as part of the Great Power competition. It is 
important to recognize what the Belarusian opposition is asking 
for and how it is different, for instance, than what is 
happening in Ukraine, where in Ukraine the protesters very 
clearly wanted an orientation with Europe and with the West. 
That is very different than what is happening in Belarus today. 
This is not about an alignment with countries to the west of 
Belarus. This is just about human rights, dignity, and the 
ability to determine for themselves what the future of that 
country is. Is that not right?
    Ambassador Fisher. Sir, I think that is exactly right, and 
I think what we are seeing in Belarus, if I put it in a bit of 
context from what I have experienced in the former Soviet Union 
over my years of service, this is a delayed transition, right? 
Lukashenka has held this grip on power. He has run Belarus in a 
very Soviet style for his quarter of a century. What we see 
from the opposition is a clear desire--it is different from 
what happened in Ukraine. It is different from what we have 
seen happen in countries in the Caucasus, because this is the 
people saying we want to have a voice.
    Largely, the demonstrations last summer to a large extent 
had an awful lot to do with COVID. It had to do with how the 
authorities have failed to respond to a health crisis. There 
were economic impacts. But immediately what we saw, as people 
pointed out shortcomings from the regime, was the Government 
immediately reverted back to its Soviet style tools.
    So what the opposition is looking for now, what that 
democratic opposition--which again, we can acknowledge that 
Lukashenka has put his opposition either behind bars or he has 
driven them to the borders of the country and kicked them out. 
So as we engage with those outside of the borders, the ones 
with whom we can engage, what they tell us explicitly they are 
after is the release of political prisoners and the conduct of 
a new election so that the people's voices can be heard.
    This is not about the European Union. This certainly is not 
about NATO. This is about a country that would like the 
opportunity to find some prosperity and stability for its own 
citizens in a state that serves the citizens, not the other way 
around.
    Senator Murphy. Well said. Let me ask you one additional 
question, and that is on how we uncover and publicize the 
endemic corruption of the Lukashenka Government. Navalny is 
really dangerous to Putin in part because he has done a very 
effective job at exposing the financial holdings of Putin and 
Medvedev and others.
    We have capacities to do that as well, along with our 
European partners. OFAC is a perpetually underfunded agency at 
Treasury that, with the right resources, can do a good job of 
exposing the way in which these dictators abroad hide their 
money. The media can do that as well. We are going to hear 
testimony on the next panel from Jamie Fly, who is going to 
talk about how Radio Free Europe and Radio Liberty need 
additional funding and additional resources to be able to do 
that work themselves and expose for the Belarusian people the 
extent to which Lukashenka and his friends have stolen from the 
people of that country.
    What do you think about the tools that we have at our 
disposal to just tell the story of how corrupt this regime is?
    Ambassador Fisher. I think that what the committee is going 
to hear from the next panel I think is going to be incredibly 
important. RFE/RL and their work is absolutely essential to 
telling that public story that you referenced.
    I think what is so compelling about the information that 
has been put out by Navalny is it reflects just how little 
investigative journalism exists in this part of the world and 
the importance of it. It is not a coincidence that the 
independent media has been Lukashenka's primary target in these 
months since last summer and the conduct of the election, and 
in all of these years.
    It is important to remember that in the lead-up to the 
Ryanair diversion, there were several significant events in the 
week before that, including the closure of the largest in-
country independent media, Tut.by. So this target is very 
clear.
    I think there is more for us to do in support of that 
independent media. I think the Global Engagement Center's work, 
if I could tout that for a second, is absolutely essential in 
terms of how we counter some of the massive amounts of 
disinformation that are at work in the Belarus account. Again, 
I know that Jamie Fly will talk much more about what it is that 
RFE/RL can do, and I am quite supportive of that.
    Senator Murphy. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Thank you, Madam Ambassador.
    I just want to follow up on this point about press freedom 
in particular. Reporters Without Borders calls Belarus, 
``Europe's most dangerous country for journalists.'' In 2020, 
journalists and other media workers were detained 480 times. In 
2021, more than 30 media workers were convicted, detained, or 
faced criminal charges by the end of May. In May recently, as 
you just indicated, Belarusian authorities launched a crackdown 
against Tut.by and its employees. It had its license revoked 
last year. In June of 2020, video blogger and RFE/RL new media 
consultant Ihar Losik--and I suspect we will hear more about 
her on the next panel--was arrested on charges preparing to 
participate in a riot and disrupt public order. She has 
undergone repeated hunger strikes, been placed in solitary 
confinement, and reportedly attempted suicide.
    We have had a lot of hearings in this committee over the 
years where we have heard about persecution of journalists. It 
might be in Egypt. It might be the dismemberment of Virginia 
resident Jamal Khashoggi, a Washington Post reporter. It might 
be in Honduras. It might be in Russia. All over the world, when 
dictators want to perpetrate atrocities and escape 
accountability, they go after media representatives.
    Mr. Chair, Senator Graham and I have introduced a bill that 
we call the International Press Freedom Act. We recently 
introduced it to create a new subcategory of non-immigrant 
visas for threatened journalists and their families, which 
would be sort of a strong statement of principle that we value 
journalism, we value a robust First Amendment culture, and we 
will provide a haven for those who are practicing this 
profession who are threatened around the world.
    I do not have other questions for the Ambassador. I think 
especially the questions from those who have recently visited 
the region have really helped to identify the challenges, and 
the next panel will do the same. I hope we might think about 
ways where we can deal with what seems to me kind of an 
expanding set of attacks on journalists around the world, and 
that we might find a way to provide refuge in the United States 
for journalists and their families when they are under assault, 
as they are in Belarus.
    The Chairman. Well, thank you, Senator Kaine. I certainly 
look forward to working with you on that. We will have to get 
some of our colleagues to think about an immigration element 
that should be unifying, at least. But it is certainly worthy 
of it. I also think we should be looking at some of our 
existing laws to see whether the persecution of journalists is 
specifically a category--for example, Magnitsky and other 
things--to be considered as sanctionable.
    As I understand it, we have no one virtually or present, so 
I do have one or two final questions before we let you go, 
Ambassador.
    What specific measures should the U.S. look to advance at 
the OSCE, the Council of Europe, perhaps the European Court of 
Human Rights, to advance the human rights and democracy efforts 
in Belarus?
    Ambassador Fisher. Sir, I think there is room for us to 
continue to shine a spotlight on what is happening, and I think 
that is sort of the minimum for what we can accomplish in those 
fora. I think there is room for us to do much more in terms of 
pushing back on Lukashenka's use of international law 
enforcement tools that he is trying to apply to those who 
simply do not agree with him, right? Whether it is the red 
notices, whether as he looks to take his levels of oppression 
beyond his own borders, I think there is a significant amount 
for us to do in coordination with the Europeans, with our 
allies, with those who share our values in rejecting this.
    You noted, sir, that this is a test for us. You noted that 
the message must be clear, not just to this dictator but to all 
dictators; that we will not sit idly by, and these are the 
various fora. The U.N., of course, is an important one as well 
for pushing back on exactly this kind of activity, and we will 
continue to do that.
    The Chairman. Well, I hope we meet the moment.
    Let me ask you this. NATO's Secretary General Stoltenberg 
called this incident a state hijacking. I was disturbed to see 
reports that NATO's efforts to penalize and cut ties with 
Belarus were stymied by Turkey, clearly working, in my view, at 
the behest of Russia.
    Can you help me understand the logic of Belarus' inclusion 
in the Partnership for Peace program given recent events?
    Ambassador Fisher. Let me maybe start by saying I think 
NATO's statement about the events was quite a strong one, and I 
would also acknowledge that we have an opportunity to hear from 
NATO again next week as leaders convene in Brussels.
    Having spent quite a bit of time at NATO, getting to 
consensus at 30 is always a challenge on any set of issues. So 
the strong statement that emerged I think is quite important. I 
would note that Secretary General Stoltenberg announced the 
Belarusians would not be welcomed in NATO headquarters. I think 
that speaks to the partnership. There are other elements--let 
me maybe describe the partnership between NATO and Belarus as 
one that has been quite limited for a very long time. This is 
not a rich and extensive partnership.
    So the questions of the next steps are ones that have to be 
dealt with by the North Atlantic Council. There are questions 
that have to be dealt with by 30 allies together, and I believe 
that they will give a thorough review to the question of the 
status of our partnership in Belarus, NATO's partnership with 
Belarus.
    The Chairman. All right. Finally, I understand that the 
Belarusian Government has not provided you with a visa, 
effectively blocking you from traveling to Minsk and presenting 
your credentials. Is it your intention to move to Lithuania, 
take up residence there so that you can engage with the 
democratic opposition on a full-time basis? Are you going to 
continue to operate as you are operating? I am trying to get a 
sense of how we best put your good experience to the best use.
    Ambassador Fisher. I appreciate that, Senator Menendez. The 
question of how I can be most effective, where I can be most 
effective, is one that I have been working very closely with 
the State Department's leadership on. I want to be clear about 
it. Our goal remains that I will undertake my duties in Minsk. 
In the absence of a visa, of course, I will work to be 
effective in advancing our policies and advancing our goals. I 
will work in any location where I can be effective.
    So at this point, you I think understand that I am 
regularly in the region. The question of being there on a more 
regular basis is one we are thinking about very seriously.
    The Chairman. Well, we look forward to hearing what that 
conclusion is.
    Ambassador Fisher. Yes, sir.
    The Chairman. We certainly want you to be able to use the 
fullness of your experience and your knowledge and your 
advocacy with all of those who are engaged in democracy 
struggle as vibrantly as possible.
    I think we have no further colleagues at this moment to ask 
questions of you. With the thanks of the committee, you are 
excused, and we thank you for your service.
    Ambassador Fisher. Thank you, sir.
    The Chairman. Thank you.
    Now let me, as the Ambassador departs, let me welcome our 
guests for our second panel.
    First, we are honored to be joined by Sviatlana 
Tsikhanouskaya, the leader of the Belarusian democratic 
opposition. She is a school teacher by profession, but answered 
the call of her country to run for President last year, and she 
won.
    Let me say that again: She won.
    Since then, she has led an opposition movement from outside 
the country in Lithuania, and I just want to say the 
Lithuanians are tremendous people, a tremendous Government. 
They are probably some of the most stalwart advocates for 
democracy and human rights throughout Europe and the world, and 
I just want to salute them. This is only one of many examples.
    I understand she is currently in Prague, where she is 
engaging with its parliament today. So thank you for joining us 
on this busy day for you. We look forward very much to hear 
what you have to say, and we will have you on virtually in a 
moment.
    We also have with us Jamie Fly, the President of Radio Free 
Europe/Radio Liberty. He is also joining us from Prague, where 
he is headquartered. RFE has come under increasing pressure 
lately in Russia, and I hope we can hear some ideas of how to 
better protect your journalists across the region. I am glad 
that you have rejoined RFE after the disgraceful treatment that 
you and the organization received from the last Administration. 
We are fortunate to have you leading the organization.
    I ask you both to summarize your remarks in 5 minutes to 
allow time for questions. Your full statements will be entered 
into the record.
    And with that, we will turn first to Mrs. Tsikhanouskaya.
    [Pause.]
    The Chairman. I understand that we are having video 
troubles, but we have audio opportunities. So we would be happy 
to hear from Mrs. Tsikhanouskaya now.
    [Pause.]
    The Chairman. Mrs. Tsikhanouskaya, do we have you on?
    [Pause.]
    The Chairman. All right. While we wait to solve the 
technical problems, is Mr. Fly available?
    Mr. Fly. Yes. Can you hear me?
    The Chairman. Yes, Mr. Fly. Thank you very much for joining 
us. The floor is yours.

 STATEMENT OF JAMIE FLY, PRESIDENT AND CEO, RADIO FREE EUROPE/
             RADIO LIBERTY, PRAGUE, CZECH REPUBLIC

    Mr. Fly. Thank you. Chairman Menendez, Ranking Member 
Risch, and other members of the committee, I want to thank you 
for holding this hearing and inviting me to testify.
    As has been noted, I am President and CEO of Radio Free 
Europe/Radio Liberty, which we refer to as RFE/RL. We are a 
multimedia news organization operating in 23 countries across 
Eurasia and in 27 languages. We do our work on a daily basis in 
places where freedom of the press does not exist or is under 
attack.
    We are funded by the U.S. Congress through an annual 
appropriation to the U.S. Agency for Global Media, and we 
believe that we are a living embodiment of America's commitment 
to freedom of the press and the vital role that the media plays 
in democracy.
    For more than 70 years, our journalists have revealed 
truths that governments and state-controlled media want to keep 
hidden. In some cases, including here in the Czech Republic, 
our work has helped to change the course of history and helped 
bring freedom to millions of people. Now we give our brave 
journalists the microphone or TV studio, increasingly the 
Facebook, Telegram, or Instagram account, and allow them to 
provide reporting directly to their communities.
    I am humbled to be joining Sviatlana Tsikhanouskaya on this 
panel. She and her family have suffered immensely over the last 
year because of her willingness to speak on behalf of the 
Belarusian people.
    RFE/RL's Belarus Service, known locally as Radio Svaboda, 
or Radio Liberty, is one of the leading providers of news and 
analysis to audiences in Belarus. We are one of the few 
independent media outlets working in the Belarusian language, 
and Svaboda has played a significant role in reporting in and 
on Belarus since the fraudulent election last August.
    As we covered the wave of civic participation ahead of the 
election, we saw a spike in audience numbers, with a record 
24.8 million recorded views on YouTube in that key month, in 
August 2020. And I would just note these are remarkable levels 
of engagement in a country of less than 10 million people.
    Svaboda has accomplished all of this despite extreme 
threats to our operation and our people in Belarus. It was 
already noted that our 29-year-old social media consultant, 
Ihar Losik, was detained last June. He will soon mark 1 year in 
pre-trial detention in Belarus. Ihar has been accused by 
authorities of preparing to disrupt public order ahead of last 
August's election. As has been noted, he attempted at one point 
to take his life and has started to hunger strike. He has been 
separated from his wife, Daria, and his 2-year-old daughter for 
that entire time, and I spoke to Daria yesterday in advance of 
this hearing, and she asked me to share this message with the 
committee.
    She told me that Ihar finds himself in a dire situation. 
His fate and his freedom directly depend on international 
pressure on Lukashenka's regime.
    Numerous other of our journalists in Belarus on assignment 
to report in recent months have been harassed, detained, 
jailed, and stripped of their accreditations. In 2020 and 2021, 
journalists other than Ihar have spent a total of 118 days in 
jail in Belarus. Our website has been blocked since last 
August. We have been relying on social media platforms like 
Telegram, Instagram, and YouTube. We have also gotten support 
from the Open Technology Fund to provide circumvention 
technology to ensure that the people of Belarus are able to 
access our reporting.
    It is not just RFE/RL journalists who are under attack. As 
has been noted, there are multiple other news organizations 
being targeted. Reportedly, 34 media workers are currently 
behind bars, awaiting trial, or serving sentences. Tut.by, as 
has been noted, Belsat, and others have had offices raided in 
recent weeks, and there is the high-profile case of Katsiaryna 
Andreyeva and Daria Chultsova, who are now serving prison terms 
for literally the crime of streaming protests from an apartment 
window.
    The Lukashenka regime is trying to expand its targeting of 
the media in recent weeks, adding new amendments to its media 
law which essentially criminalize journalism and make it much 
more difficult for journalists to do their jobs.
    I briefly wanted to note Russia's support for Lukashenka's 
efforts to control the information space. In the early months 
of the protests, at Lukashenka's request, the Kremlin sent 
Russian propagandists from Russian state TV to assist the 
Belarus state TV channels because many of those journalists at 
Belarus state TV started to resign from their jobs. At the same 
moment the Kremlin was doing this, RFE/RL sought to provide an 
alternative to Russian disinformation in Belarus, and we sent 
some of our own Russian-based journalists to cover the events 
in Belarus for a very interested Russian public until those 
journalists from Russia, like other foreign journalists, were 
kicked out by the Belarusian Government.
    As you noted, Mr. Chairman, RFE/RL is under significant 
pressure in Russia, which ramped up in the immediate aftermath 
of the events in Belarus last fall. This crackdown is 
essentially trying to close our bureau in Moscow, which has 
existed for 30 years, since 1991, when it was established at 
the invitation of President Yeltsin. We face millions of 
dollars in fines for failing to label our content as the 
products of so-called ``foreign agents,'' essentially spies in 
the Russian context, and we have now had our bank accounts 
frozen inside Russia, and court bailiffs visit our offices on 
several occasions to begin enforcement proceedings.
    Briefly, I want to just conclude with some ideas about how 
Congress can be helpful to support independent journalism not 
just in Belarus and in Russia but elsewhere in the region.
    Fundamentally, independent media, including RFE/RL, need 
additional resources to support our work as we face governments 
that are increasingly targeting journalists, ramping up 
repression, making it more difficult to reach audiences with 
Internet blockages, targeting websites, and providing access 
restrictions.
    In Belarus, as well as many of the other countries where we 
operate, we need additional statements of support. I want to 
support many members of the committee for speaking out on the 
case of Ihar Losik. We also have a contributor in Ukraine, 
Vladyslav Yesypenko, who has been detained in Russian-occupied 
Crimea since March and was reportedly tortured. In the last 
year we have lost a journalist, Mohammad Ilyas Dayee, in a 
targeted assassination attack in Afghanistan. We now have many 
other Afghan journalists who work for our Afghan service who 
are facing credible threats to their lives as the U.S. military 
withdraws.
    All of this requires sustained investment and funding at a 
time when our competitors, including competitors backed by the 
Russian Federation and China, expand their information 
operations across Eurasia and are committing significant 
resources to those efforts, and in some markets we are 
increasingly falling behind and finding it difficult to 
compete.
    One final note, and you referenced, Mr. Chairman, the 
developments over the last year at the U.S. Agency for Global 
Media. We need additional congressional support to ensure our 
independence from the U.S. Government. Our journalists are 
mostly people working in the countries they were born in and 
raised in and grew up in, and they provide a local service to 
their communities. They operate in countries where governments 
try to paint them all the time as intelligence agents or agents 
of a foreign power. While there have been some early positive 
signs during the Biden administration by the acting leadership 
of the U.S. Agency for Global Media, the turmoil at that 
agency, which is supposed to safeguard our independence, has 
increasingly raised questions amongst our journalists and some 
of our audiences about the safeguards that have long existed in 
U.S. statute that are supposed to preserve our independence 
from any government interference.
    I will just end by noting that we are based, as you noted, 
here in Prague. We are here because Vaclav Havel invited us 
after he was a listener to our Czechoslovak service and saw the 
powerful role that we could play in helping shape what became 
the Velvet Revolution. He wrote frequently about living in 
truth, which is a mantra for RFE/RL. Our bond with our audience 
has always been based on respect for the truth. It has drawn 
audiences to us for decades, through efforts to jam and block 
our signal. It has drawn audiences to us in Belarus for using 
circumvention technology to get around website blockages, and 
to this day submitting their own content to us to use in our 
reporting, and we need your continued and additional support to 
help ensure that we can help the Belarusian people in their 
effort to live in truth, as well as all of our audiences across 
Eurasia who desire the same and are looking to us for 
independent reporting to help them do that.
    Thank you for your attention.
    [The prepared statement of Mr. Fly follows:]

                  Prepared Statement of Mr. Jamie Fly

    Chairman Menendez, Ranking Member Risch, and other members of the 
committee, I want to thank you for holding this hearing and inviting me 
to testify.
    I serve as President and CEO of Radio Free Europe/Radio Liberty 
(RFE/RL). We are a multimedia news organization reaching 41.1 million 
people each week in 23 countries across Eurasia in 27 languages. We 
operate in places where freedom of the press does not exist or is under 
attack. Funded by the U.S. Congress through an annual appropriation to 
the U.S. Agency for Global Media, we are a living embodiment of 
America's commitment to freedom of the press and the vital role that 
the media plays in democracy.
    I'm humbled to be joining Sviatlana Tsikhanouskaya on this panel. 
She and her family have suffered immensely over the last year because 
of her willingness to speak on behalf of the Belarusian people. The 
values that she champions on behalf of them are the same values our 
audiences across our coverage area aspire to. Freedom to choose your 
own leaders. Freedom of expression. Freedom to assemble. These are 
universal rights that the Belarusian people have been deprived of for 
far too long.
    For more than 70 years, RFE/RL's journalists have revealed truths 
that governments and state-controlled media want to keep hidden. In 
some cases, our work has helped to change the course of history and 
helped bring freedom to millions. Our brave independent journalists are 
people born and raised in the countries where they work, and who care 
deeply about their homeland and their fellow citizens. We give them the 
microphone or TV studio, or now, more often, the Facebook, Telegram, or 
Instagram account, so they can provide reporting directly to their 
communities.
    In all our markets we strive to attract and retain a loyal 
audience, but our value is especially obvious during a political 
crisis. And the recent crisis in Belarus is a case in point. RFE/RL's 
Belarus Service, known locally as Radio Svaboda, or ``Radio Liberty,'' 
is one of the leading providers of news and analysis to Belarusian 
audiences. Established in 1954, Svaboda, despite working in what 
Reporters Without Borders calls ``the most dangerous country in Europe 
for media personnel,'' continues decades later to provide independent 
news and analysis of the fast-moving events to Belarusian audiences in 
their own language.
                        rfe/rl's work in belarus
    As one of the few independent media outlets working in the 
Belarusian language, RFE/RL's Belarus Service has played a significant 
role in reporting in and on Belarus since the fraudulent election in 
August 2020. As it covered the wave of civic participation ahead of the 
election, Svaboda saw a spike in audience numbers--with a record 24.8 
million recorded views on YouTube in August 2020. In fact, Svaboda 
broke all of its previous digital records in August and September of 
2020 driven by interest in the coverage of the protests, remarkable 
levels of engagement in a country of less than 10 million people.
    Our reporters provided a window of truth to the events in the 
country over the past year with exclusive live footage from street 
demonstrations, live reporting on police repression of ordinary 
citizens, and the vicious crackdown on civil society. Svaboda reported 
that in May alone courts in Belarus issued sentences for 252 years of 
prison time and 100 years of forced labor in political trials. It means 
that more than 10 years of freedom were being destroyed in Belarus 
every day of the past month.
    Svaboda also revealed the truth behind what happened after riot 
police detained protesters, publishing numerous first-person accounts 
of individuals who were beaten, abused, and threatened. While 
conducting that coverage, our journalists also looked at the human side 
of the crackdown and how Belarusians were adapting to the increasing 
police state. In one short feature video, RFE/RL reported about the 
popularity of neighborhood Telegram chats and related street 
gatherings--showing how every day in dozens of Minsk neighborhoods, 
locals have started to use these ``courtyard chats'' to get acquainted, 
organize protest actions, and support each other.
    Our work was seen as so integral to truthful live coverage of the 
country's protests that our cameras captured ordinary citizens chanting 
``Radio Svaboda!, Radio Svaboda!'' on August 15 outside of the State TV 
building, after they spotted our video crew, showing the emotional 
attachment Svaboda has with ordinary Belarusians.
    More recently, RFE/RL journalists have found ways to cover closed-
door trials that other outlets have been barred from. Just last week, 
media around the world cited RFE/RL's courtroom video of the tragic 
attempted suicide of activist Stepan Latypov. This coverage has ensured 
not only that Belarusians are able to learn what is happening in their 
own country--but this unique reporting has also ensured that the world 
remains aware of the dire human rights situation inside the country.
               lukashenka's criminalization of journalism
    Svaboda has accomplished all of this--and more--despite extreme 
threats to its operations and people.
    Detained on June 25, 2020, 29-year-old RFE/RL social media 
consultant Ihar Losik will soon mark a year in pre-trial detention in 
Belarus. Losik has been accused by authorities of using his popular 
blog on Telegram to ``prepare to disrupt public order'' ahead of the 
August presidential election. Since then, authorities have added 
unknown additional charges against Losik--who has started two hunger 
strikes to protest his detention.
    Ihar Losik has been cruelly separated from his wife, Darja, his 2-
year-old daughter, and his colleagues for far too long. Ihar must be 
freed from detention and allowed to rejoin his family. I spoke to Darja 
yesterday and she gave me this message to share with the Committee:

        ``Ihar finds himself in a dire situation. His fate and his 
        freedom directly depend on international pressure on 
        Lukashenka's regime.''

    Numerous other RFE/RL journalists on assignment to report on the 
election and its aftermath have been harassed, detained, jailed, and 
stripped of their accreditations. In 2020 and 2021, RFE/RL journalists 
other than Ihar Losik have spent a total of 118 days in jail. In one 
case, one of our photojournalists served 11 days in jail after being 
detained by unidentified men after covering a September 13 protest 
rally in Minsk. While in detention, he was beaten and the flash cards 
holding his photos were confiscated. In another case, one of our 
journalists was detained and beaten by riot police who left him 
handcuffed and kneeling on the floor of a police van, bleeding with a 
broken nose, as he was taken to a precinct station. These attacks 
against our journalists are not the exception, but rather the norm in 
today's Belarus.
    Access to Svaboda's website was blocked inside Belarus on August 
21, 2020. Since that time, RFE/RL has been relying on social media 
platforms such as Telegram, Instagram, and YouTube, as well as using 
circumvention technology provided by the Open Technology Fund, to 
ensure that the people of Belarus are able to access essential 
reporting and information that the Belarusian regime seeks to repress.
    Unfortunately, the events starting last summer were just the start 
of the Lukashenka regime's attempt to criminalize journalism.
    In early May, police launched a probe of popular Belarusian news 
portal Tut.by, searching the homes of several of its editors and 
blocking its website. A journalist who was covering the raid was later 
sentenced to 15 days in jail for ``petty hooliganism.'' A Minsk studio 
used by the Poland-based Belsat TV station was raided by Belarusian 
security forces on May 21 and six people were detained. Belsat has 
produced investigations critical of Alyaksandr Lukashenka and his 
associates.
    Not only coverage of politics or protests is risky. Two sports 
journalists who work on a popular YouTube channel covering soccer were 
arrested on June 3. The Belarusian Association of Journalists reports 
that 34 media workers are behind bars, either awaiting trial or serving 
sentences, including Katsiaryna Andreyeva and Daria Chultsova whose 
``crime'' was livestreaming a protest from an apartment for Belsat.
    Pressure on independent media is intensifying. On May 24, 
Lukashenka signed into law draconian new amendments to its Media Law 
that outlaw live coverage of ``unauthorized'' mass gatherings--which 
are defined elsewhere as any rally not formally sanctioned by the 
Belarusian government. The updated law also allows the Government to 
shut down media outlets without a court order and bans publication of 
the results of opinion polls the Government has not authorized. These 
changes will make the country even more dangerous for journalists who 
seek to report on events happening in Belarus.
    The Lukashenka regime's repressive campaign against the free flow 
of information to the Belarusian people and its targeting of 
independent journalists, including RFE/RL reporters and staff, must 
cease so they can continue their vital work.
 russian support to lukashenka regime and targeting of rfe/rl in russia
    Russian attempts to influence Belarus are well known. There are 
disturbing similarities between the Russian and Belarusian crackdowns 
on civil society and a free media. On May 23, Belarus dispatched a 
fighter jet to intercept a Ryanair commercial flight flying from Athens 
to Vilnius, forcing it to land in Minsk where journalist Raman 
Pratasevich, a former RFE/RL Vaclav Havel Fellow, and his girlfriend, 
Sofia Sapega, a Russian national, were taken off the aircraft and 
detained. And last week, the world saw a hostage style interview in 
which Pratasevich, who displayed obvious marks of torture, commended 
Alyaksandr Lukashenka.
    Following the forced landing and arrest of Pratasevich, Margarita 
Simonyan, the editor-in-chief of several Russian state-controlled media 
outlets, was criticized by Reporters Without Borders (RSF) for making 
public comments that amounted to ``open support'' for an ongoing 
crackdown on independent media in Belarus. Russian President Vladimir 
Putin himself, in meeting with Lukashenka, dismissed the Western 
reaction to the flight's diversion as ``an outburst of emotions.''
    Lukashenka has clearly long admired the Russian Government's 
approach to propaganda. After employees resigned in protest from 
Belarus state-controlled TV stations in the early months of the post-
election protests, at Lukashenka's request, Russian state-controlled 
media outlets sent staff to assist Belarus State TV channels, which 
then started sounding eerily similar to their Russian counterparts. 
While Russian state media sent propagandists to lie to Belarusians 
about what was happening in their country, RFE/RL sought to provide an 
alternative to Russian disinformation. We sent some of our Russia-based 
journalists to cover the events in Belarus for a very interested 
Russian public until they, along with other foreign journalists, were 
kicked out by the Belarusian Government.
    Since last fall, the Kremlin has been engaged in its own 
unprecedented crackdown against independent media in Russia. This 
crackdown has targeted RFE/RL's operations in the country, which we 
formally launched 30 years ago at the invitation of then President 
Boris Yeltsin.
    Pressure against RFE/RL in Russia has steadily increased over 
Vladimir Putin's 20 years in power but spiked in the past several 
years--most notably with the Russian Justice Ministry designating RFE/
RL reporting projects in 2017 as ``foreign media carrying out the 
functions of a foreign agent'' in an effort to discredit our work. 
Despite access restrictions inside Russia on TV and radio, the RFE/RL 
audience in the country has almost doubled over the last 5 years. This 
success has not gone unnoticed by the Russian authorities.
    The Russian media regulator is on track to impose fines amounting 
to more than $3.4 million against our Moscow bureau for failing to 
label our content as the work of a ``foreign agent''--a term that in 
Russia implies that RFE/RL journalists are spies. On May 14, Russian 
court bailiffs arrived at RFE/RL's Moscow bureau to notify us about 
enforcement proceedings for the outstanding fines. That same day, 
Russian authorities froze RFE/RL's Russian bank accounts.
    If these fines are not paid, the Russian authorities have the power 
to place RFE/RL's Russian entity into insolvency and to block access to 
our websites. RFE/RL has filed a case with the European Court of Human 
Rights, challenging Russia's use of ``foreign agent'' laws, making the 
case that Russia's actions violate the rights to freedom of expression 
and freedom of the press protected by Article 10 of the European 
Convention on Human Rights, and that our Russian staff will suffer 
irreversible harms if the Court does not act quickly.
    No matter what the Putin regime tries to do to our operations in 
Russia, we have made clear that we will not abandon our Russian 
audience. We are redoubling our efforts to provide innovative 
programming and news and information to our Russian audiences at a time 
when their Government is trying to control what types of journalism 
they have access to.
    The Lukashenka regime is discussing similar legislation targeting 
foreign funded media in Belarus. The goals of both Lukashenka and Putin 
are clear--complete control of the information space with the goal of 
absolute political control. This is the opposite of everything we at 
RFE/RL stand for.
     how congress can respond to threats against independent media
    RFE/RL needs urgent support and assistance to preserve our ability 
to conduct independent journalism--not only in Belarus but across a 
region where authoritarians are resurgent and democrats are on the 
defensive. We were heartened by the strong language of support in the 
Belarus Democracy, Human Rights, and Sovereignty Act of 2020, which 
called for support and reallocation of resources for RFE/RL's work in 
Belarus, as well as for surge capacity for our programs and activities 
in the country. We have a need for additional resources to be able to 
support our work and the independent media ecosystem in Belarus as well 
as Russia. This is an area ripe for greater international 
collaboration, especially between the United States and its European 
partners.
    In Belarus, as well as Russia, Ukraine, Afghanistan, and other 
countries where our journalists conduct on-the-ground reporting, we 
need additional support for journalists under pressure. In Belarus, the 
regime's attacks on the media have put our correspondents at risk of 
arbitrary detention for merely performing their essential journalistic 
work. In Russia, our journalists are facing the difficult choice of 
continuing to report for us in-country and potentially face grave 
consequences, or to relocate for their own safety. In Ukraine, cars of 
several of our journalists have been firebombed and one of our 
contributors, Vladyslav Yesypenko, has been detained in Russian-
occupied Crimea since March and reportedly tortured. In Afghanistan 
RFE/RL correspondent Mohammad Ilyas Dayee was killed in a targeted 
attack in November 2020, and many other reporters face credible threats 
to their lives as the U.S. military withdraws.
    Governments that imprison, torture, and attack journalists should 
face repercussions. In the case of Belarus, there should be 
international investigations into the targeting of journalists and 
documentation of their cases and those involved in their brutal 
treatment.
    Even as independent media outlets, including RFE/RL, are being 
threatened as never before across this vital region, Russia and China 
are expanding their information operations across our broadcast area 
and investing significant resources. Our work in many languages 
provides an alternative to their state-controlled narratives in 
countries and pushes back on misinformation using facts and live 
footage that show first-hand the truth about what is happening on the 
ground in Belarus, Ukraine, Georgia, Moldova, Central Asia, and the 
Balkans. Meeting this challenge will require sustained investment at a 
time when our competitors are committing significant resources.
    RFE/RL needs ongoing support from Congress to ensure that our 
editorial independence and that of our fellow congressionally funded 
broadcast networks is respected and protected. That independence is 
codified in the International Broadcasting Act but turmoil over the 
last year at the U.S. Agency for Global Media has raised concerns 
amongst some of our audiences and our journalists about the limitations 
of these protections.
    Most of our journalists are in-country locals, working to provide 
journalism as an essential service for their communities. They are 
patriotic citizens of their countries, working side by side with our 
audiences and facing hostile governments that try to paint them as 
intelligence operatives or agents of a foreign power. While the early 
months of the Biden administration have led to reassuring moves by the 
Acting leadership of the Agency to reaffirm our editorial independence, 
it is important for Congress to continue to make clear that you fund 
our journalism not because of a desire to spread U.S. propaganda to the 
world but because you understand the important role that a free press 
plays in the functioning of democracy.
                               conclusion
    Since 1995, RFE/RL has been based in Prague in the Czech Republic. 
We were invited there by Vaclav Havel, who as an activist and dissident 
listened to our Czechoslovak Service. Havel wrote eloquently about the 
notion of ``living in truth'' and how powerful and revolutionary it is 
when citizens suffering under an authoritarian regime decide to ``live 
in truth.''
    RFE/RL's bond with our audience has always been grounded in our 
adherence to and respect for the truth. It is what drew families to 
gather around the radio to search through the static for the one radio 
frequency the authorities did not jam during decades of darkness. It is 
what draws audiences to us to this day, using VPNs and circumvention 
tools or submitting digital content to us surreptitiously to be shared 
with their fellow citizens.
    The Belarusian people have been ``living in truth'' since last 
August. Hopefully they will continue to inspire those elsewhere, 
including in Russia, but also those of us living comfortably in 
democracies who already benefit from the bravery of those who came 
before us.
    Thank you for your attention.

    The Chairman. Thank you. I let you go on for about 10 
minutes because I think what you have to say is so important, 
and we embrace your calls for help. I certainly intend to 
follow up on some of the suggestions you made, and we may be 
reaching out to you independently from this hearing to follow 
up on that, so thank you very much.
    My understanding now is that we have Mrs. Tsikhanouskaya, 
and the audio we are doing via telephone.
    Mrs. Tsikhanouskaya, if you are with us, please go ahead.

STATEMENT OF SVIATLANA TSIKHANOUSKAYA, LEADER OF THE DEMOCRATIC 
                OPPOSITION IN BELARUS, VILNIUS, 
                           LITHUANIA

    Mrs. Tsikhanouskaya. Mr. Chairman, Ranking Member, 
distinguished members of the committee, thank you for the 
opportunity to speak to you on behalf of millions of 
Belarusians seeking democracy and freedom. I am here to share 
my story and to illustrate how Lukashenka's regime has outgrown 
its borders and became a threat to international peace and 
security.
    My personal story started a year ago when my husband, 
Siarhei, announced that he was running for President, 
challenging the incompetent rule of the dictator. The security 
forces have kept Siarhei arrested ever since.
    To stand up for my husband's rights, I entered the race 
instead of him. Other strong candidates--Viktar Babryka and 
Valery Tsepkalo--were either arrested or forced to flee. 
Ultimately, the three campaigns united forces, and I became the 
main opposition candidate, campaigning together with Veranika 
Tsepkalo and Maria Kalesnikava.
    On August 9, 2020, the dictator blatantly falsified the 
vote and tried to steal the victory from the people.
    Through intimidation, the regime forced my children and 
then me to leave Belarus. My 5-year-old daughter still thinks 
that prison is some kind of an interesting place, something 
similar to a work trip. Her 11-year-old brother avoids 
explaining what it actually means. So do I.
    Not a single day passes without her asking when her daddy 
is coming home. Not a single day passes without me asking the 
same question. This is what life has been like for at least 470 
families of political prisoners.
    This number continues to grow as Belarusians are protesting 
every day, unwilling to give in, insisting that the dictator 
must go and that new elections must take place. The nation 
reacted massively to Lukashenka's attempt to steal elections. 
The regime's only response has been violence. Thirty-five 
thousand detentions, 3,000 politically motivated criminal 
cases, thousands of cases of beatings and torture. There have 
been at least 10 protest-related deaths.
    The last deaths were just 3 weeks ago: Vitold Ashurak, a 
political prisoner, aged 50, died in a prison camp from 
supposed heart failure. His wife said Vitold never had heart 
problems; 18-year-old Dzmitry Stakhouski, an orphan, committed 
suicide, unable to endure relentless harassment from the 
investigation committee.
    The regime is also trying to conceal the truth by 
repressing the media. Just last month, the security forces 
closed down Tut.by, the most popular media outlet in the 
country, and arrested 15 of its employees on trumped up charges 
of tax evasion. The next local elections are to be postponed 
until the end of 2023.
    The response from the international community to the 
crackdown against pro-democracy protests has been principled 
but gradual, sporadic, often symbolic, and diminishing. This 
helped the regime to adjust and to develop a growing sense of 
impunity.
    As a result, on May 23, the dictator reached a turning 
point: he ordered a military jet to force the landing of a 
commercial Ryanair flight over Belarus to arrest journalist 
Raman Pratasevich, who was on board. Those reckless actions put 
the lives of 126 passengers at risk to satisfy the dictator's 
uncontained impulse to capture an opponent.
    New reports reveal that six other commercial planes flying 
over Belarus on that day were forced to change their routes, 
putting the lives of many more people at unnecessary risk.
    This entire incident and the disregard of Lukashenka for 
people's lives are shocking to international audiences. 
Belarusians have been subjected to this kind of lawless 
treatment every day for the last 10 months, and on a broader 
scale for 26 years already.
    With this decision, Lukashenka has crossed the line and 
became a threat to international peace and security. Hence, the 
international reaction has finally been swift and effective: 
imposing practical measures and starting an ICAO investigation. 
However, the international reaction must not be limited to the 
Ryanair flight incident. The entire situation in Belarus 
deserves a comprehensive and unwavering response. Otherwise, we 
all will face such situations in the future, as Lukashenka is 
turning my country into a North Korea of Europe--non-
transparent, unpredictable, and dangerous.
    The United States, acting together with its partners in 
Europe and with other like-minded nations, has the power to put 
a stop to this trajectory.
    I urge the United States to: expand the sanctions against 
Lukashenka's cronies who finance the regime, including 
enterprises like Belaruskali and Mazyr Oil Refinery; identify 
sources of foreign funding for the regime and target them; 
discuss the crisis in Belarus during high-profile international 
events like the G7 summit, NATO summit, U.S.-EU summit and 
U.S.-Russia meeting, and invite Belarusian democratic forces to 
participate; support EU in launching a high-profile 
international conference on the resolution of the crisis in 
Belarus involving main stakeholders; develop a U.S. aid package 
building on the EU Comprehensive Plan for democratic Belarus to 
assure Belarusians that they will have help when the change 
comes and to prepare steps to stabilize and reform the economy.
    The U.S. can also participate in the associated Donors 
Forum and Investors Meeting contemplated by the EU.
    There are other suggestions, and I would like to ask to add 
to the record an expanded list of suggested steps on the 
situation in Belarus by the U.S. and other nations.
    These actions would help build up the momentum to launch a 
transition to elections, exactly what Belarusians demand. 
Otherwise, Lukashenka and other dictators around the world will 
feel impunity to freely break international norms to crush 
their opponents.
    Thank you for your attention.
    [The prepared statement of Mrs. Tsikhanouskaya follows:]

          Prepared Statement of Mrs. Sviatlana Tsikhanouskaya

    Mr. Chairman, Ranking Member, distinguished Members of the 
Committee, thank you for the opportunity to speak to you on behalf of 
millions of Belarusians seeking democracy and freedom. I am here to 
share my story and to illustrate how Lukashenka's regime has outgrown 
its borders and became a threat to international peace and security.
    My personal story started a year ago when my husband, Siarhei, 
announced that he was running for president, challenging the 
incompetent rule of the dictator. The security forces have kept Siarhei 
arrested ever since.
    To stand up for my husband's rights, I entered the race instead of 
him. Other strong candidates--Viktar Babryka and Valery Tsepkalo--were 
either arrested or forced to flee. Ultimately, the three campaigns 
united forces, and I became the main opposition candidate, campaigning 
together with Veranika Tsepkalo and Maria Kalesnikava.
    On August 9, 2020, the dictator blatantly falsified the vote and 
tried to steal the victory from the people.
    Through intimidation, the regime forced my children and then me to 
leave Belarus. My 5-year-old daughter still thinks that ``prison'' is 
some kind of an interesting place--something similar to a work trip. 
Her 11-year-old brother avoids explaining what it actually means. So do 
I.
    Not a single day passes without her asking when her daddy is coming 
home. Not a single day passes without me asking the same question. This 
is what life has been like for at least 470 families of political 
prisoners.
    This number continues to grow as Belarusians are protesting every 
day, unwilling to give in, insisting that the dictator must go and that 
new elections must take place. The nation reacted massively to 
Lukashenka's attempt to steal elections. The regime's only response has 
been violence. Thirty-five thousand detentions, 3000 politically 
motivated criminal cases, thousands of cases of beatings and torture. 
There have been at least 10 protest related deaths.
    The last deaths were just 3 weeks ago: Vitold Ashurak, a political 
prisoner aged 50, died in a prison camp from a supposed heart failure. 
His wife said Vitold never had heart problems. 18-year-old Dzmitry 
Stakhouski, an orphan, committed suicide, unable to endure relentless 
harassment from the investigation committee.
    The regime is also trying to conceal the truth by repressing the 
media. Just last month, the security forces closed down Tut.by, the 
most popular media outlet in the country, and arrested 15 of its 
employees on trumped up charges of tax evasion. The next local 
elections are to be postponed till the end of 2023.
    The response from the international community to the crackdown 
against pro-democracy protests has been principled but gradual, 
sporadic, often symbolic, and diminishing. This helped the regime to 
adjust and to develop a growing sense of impunity.
    As a result, on May 23, the dictator reached a turning point: he 
ordered a military jet to force the landing of a commercial Ryanair 
flight over Belarus to arrest journalist Raman Pratasevich who was on 
board. Those reckless actions put the lives of 126 passengers at risk 
to satisfy the dictator's uncontained impulse to capture an opponent.
    New reports reveal that six other commercial planes flying over 
Belarus on that day were forced to change their routes, putting the 
lives of many more people at unnecessary risk.
    This entire incident and the disregard of Lukashenka for people's 
lives are shocking to international audiences. Belarusians have been 
subjected to this kind of lawless treatment every day for the last 10 
months and on a broader scale--for 26 years already.
    With this decision, Lukashenka has crossed the line and became a 
threat to international peace and security. Hence, the international 
reaction has finally been swift and effective: imposing practical 
measures and starting an ICAO investigation.
    However, the international reaction must not be limited to the 
Ryanair flight incident. The entire situation in Belarus deserves a 
comprehensive and unwavering response. Otherwise, we all will face such 
situations in the future, as Lukashenka is turning my country into a 
North Korea of Europe--non-transparent, unpredictable, and dangerous.
    The United States, acting together with its partners in Europe and 
with other like-minded nations, has the power to put a stop to this 
trajectory.
    I urge the United States to:

  <bullet> Expand the sanctions against Lukashenka's cronies who 
        finance the regime, including enterprises like Belaruskali and 
        Mazyr Oil Refinery, identify sources of foreign funding for the 
        regime and target them.

  <bullet> Discuss the crisis in Belarus during high-profile 
        international events like the G-7 summit, NATO summit, U.S.-EU 
        summit and U.S.-Russia meeting and invite Belarusian democratic 
        forces to participate.

  <bullet> Support EU in launching a high profile international 
        conference on the resolution of the crisis in Belarus involving 
        main stakeholders.

  <bullet> Develop a U.S. aid package building up on the EU 
        Comprehensive Plan for democratic Belarus to assure Belarusians 
        that they will have help when the change comes and to prepare 
        steps to stabilize and reform the economy. The U.S. can also 
        participate in the associated Donors Forum and Investors 
        Meeting contemplated by the EU.

    There are other suggestions, and I would like to ask to add to the 
record an expanded list of suggested steps on the situation in Belarus 
by the U.S. and other nations.
    These actions would help build up the momentum to launch a 
transition to elections--exactly what Belarusians demand. Otherwise, 
Lukashenka and other dictators around the world will feel impunity to 
freely break international norms to crush their opponents.
    Thank you for your attention.
    I am looking forward to your questions.

    The Chairman. Well, thank you very much, Mrs. 
Tsikhanouskaya. We salute your courage and your bravery and 
those who follow you, and the Belarusian people in their 
aspirations for freedom. We thank you very much.
    We will include, when you transmit it to us, your suggested 
actions into the record and share it with our colleagues.
    We would like to take a few minutes to engage in a 
conversation with you, if you still have time.
    Mrs. Tsikhanouskaya. Yes, sure. I am still with you.
    The Chairman. Okay, very good.
    We have several members here, and I am sure they are going 
to want to ask questions or make some statements, so let me 
start off with myself.
    I heard your list of desired actions. In advance of 
President Biden's visit to Europe this week, what is the main 
message that you would like to hear him say?
    Mrs. Tsikhanouskaya. My message is that what is happening 
in Belarus is not about geopolitics. It is our fight against 
dictator. It is not about other countries against regime in our 
country.
    The Chairman. Okay. And with reference to your call for an 
international conference to resolve the political crisis, which 
would include government officials from Belarus and Russia, can 
you share with the committee what goals you would have for such 
a gathering and whether such an idea has gained any traction?
    Mrs. Tsikhanouskaya. We need this conference to unite our 
efforts to try to solve how to get out of political crisis in 
Belarus, how to deal with the regime, and how to bring Belarus 
to new free and fair elections under observation of 
international organizations.
    The Chairman. Finally, have there been defections from the 
police and security forces?
    Mrs. Tsikhanouskaya. I think especially in August and 
September events, there were a lot of people from the regime 
who came to our side, and now we change the strategy a little 
bit and we ask people in the regime to stay in their places but 
to give us inside information about the mood among people in 
the regime, to give us documents and video recordings so they 
are useful there where they work now.
    The Chairman. Very good. Well, thank you again for joining 
us and for your testimony.
    Let me turn to Senator Portman, who I understand visited 
with you in the recent trip.
    Senator Portman.
    Senator Portman. Thank you, Mr. Chairman, and thank you for 
having this hearing and giving Mrs. Tsikhanouskaya an 
opportunity to address the United States Congress and to have 
in the official record her thoughtful presentation regarding 
what is happening in Belarus today and what she and her fellow 
patriots have gone through.
    It was a pleasure to meet with you in Lithuania last week. 
I am pleased to see that Ambassador Fisher not only testified 
before us today but that she is still here and listened 
carefully, I thought, to your presentation.
    One of the things that I think is very important is that in 
the next couple of weeks while we have these opportunities with 
the European Union, and certainly with the NATO summit, the G7 
summit, the meeting with Russian President Putin, that there be 
a very strong and forceful communication about the importance 
of us standing by Belarus, all of us who believe in freedom and 
democracy and understanding the role that Russia is playing in 
Belarus. So I thank you for testifying today because I hope 
that this will help us.
    Can you explain just briefly why you think it is so 
important that the United States provide this message in these 
fora over the next week or so, and why it is so important that 
the European Union and the United States continue to stand by 
those people in Belarus like yourself, like journalist Raman 
Pratasevich, who are standing for freedom?
    Mrs. Tsikhanouskaya. Thank you, Senator Portman, for your 
question. The Europeans is one of the oldest democracies and 
one of the most powerful countries in the world. So I think 
that it is evident that the message from European entities will 
be the most powerful. Basically, the U.S.A. has to act jointly 
with the European Union and the UK and Ukraine and other 
countries that have the same values, values of democracy, just 
to help the people to continue their fight. This help should be 
urgent because people on the ground are suffering, so time is 
very important. We have to avoid impunity of the regime. We 
have to assist people because it is very difficult. To bring 
strong friends together with us, it is much easier to survive.
    Senator Portman. Thank you. In your testimony today you 
talked about the need to expand the sanctions. I noted that you 
talked specifically about the cronies who finance the regime, 
including specific enterprises and identifying sources of 
foreign funding for the regime to target them. Do you believe 
that sanctions that are focused on sectors, important sectors 
like the oil refinery business you mentioned, could be 
effective in changing the behavior of the Lukashenka regime?
    Mrs. Tsikhanouskaya. You know, the companies I listed, the 
state oil companies, are the main focus of Lukashenka. Of 
course, he and his regime are afraid of the sanctions and only 
threatening sanctions can help release political prisoners and 
stop violence. If he does not have income from these 
enterprises, he will not have money to pay his cronies and 
policemen. We have experience from the past that sanctions 
helped political prisoners to be released. The people in 
Belarus assure that sanctions will help in our case.
    Senator Portman. Mrs. Tsikhanouskaya, thank you for coming 
today. Thank you for your courage. You have, on a bipartisan 
basis, friends and supporters in this room and throughout the 
United States Congress and this Administration, and we wish you 
the best.
    Mrs. Tsikhanouskaya. Thank you, Senator Portman.
    The Chairman. Thank you.
    Now we turn to Senator Shaheen, who chairs the Europe 
Subcommittee of the Foreign Relations Committee and I know led 
a delegation recently to the region.
    Senator Shaheen.
    Senator Shaheen. Thank you very much, Mr. Chairman.
    Mrs. Tsikhanouskaya, it is wonderful to hear from you 
again. We especially appreciated your willingness to meet with 
Senator Portman, Senator Murphy and me in Vilnius last week. I 
think the people of Belarus are very lucky to have such an 
impressive, courageous advocate on their side.
    I am very concerned about Russia's intentions with 
Lukashenka and what that may mean for the opposition and the 
effort to get free and fair elections. When we were in the 
region last week we heard from folks in Ukraine and in Georgia 
about the effort to form a union with Belarus and with the 
provinces in Georgia.
    Can you talk about whether you think that makes it harder 
or will have any impact on what you are doing with the 
opposition in Belarus?
    Mrs. Tsikhanouskaya. Thank you. Putin and Lukashenka have a 
complicated relationship. They got used to each other, and in 
order to retain support of [inaudible], it is very important to 
demonstrate support of the Kremlin. Otherwise all his political 
power will collapse. But I do not believe that the Kremlin will 
support Lukashenka for long, and we do our best to make this 
support as expensive as possible. Thank you.
    Senator Shaheen. Well, thank you very much. As Senator 
Portman and Senator Menendez said, you have strong bipartisan 
support here in the Congress, and we want to do everything we 
can to support you and the opposition in Belarus.
    I would like to ask Mr. Fly a question as well, because 
while we were in Ukraine we had the opportunity to meet with 
some journalists who have fled to Kiev from Moscow. I want to 
first thank you, Mr. Fly, and all of your reporters who provide 
real facts to oppressed people across Eurasia. And they do it, 
as you pointed out, at real danger to themselves and their 
families often.
    As you are thinking about the challenges that you face if 
Putin froze all of the RFE/RL reporters out of Moscow, and as 
autocratic governments across Europe and Asia look at ways to 
crack down on the work that you are doing, how can we in 
Congress be more supportive of your efforts?
    Mr. Fly. Thank you for that question, Senator Shaheen. I 
just want to thank you in particular, and Senator Murphy and 
Senator Portman, because the visit that you held with our 
journalists in Kiev was not just a strong symbol of support to 
them and those who have recently had to leave Moscow. When you 
speak out in that way on their behalf, it is noticed by all of 
our journalists, and I think journalists who do not even work 
for RFE/RL, and gives them more courage to do their job. So 
thank you for taking your time during your visit to Kiev.
    My concern is that we see this trend in Russia, we see it 
in Belarus at differing rates, of criminalization of 
journalism, authoritarians trying to control the information 
space, limit the options for their citizens to state propaganda 
outlets or outlets that the regime is comfortable allowing 
because they are non-controversial. We are seeing that in 
different forms, at different speeds, but we are seeing them 
learn from each other and adapt their approaches.
    In the Russian case they are using what is called a foreign 
agent law to target us. Lukashenka has now talked about 
imposing a foreign agent law in Belarus, which could threaten 
our presence in Minsk.
    So statements of support from the Congress are incredibly 
helpful. Governments--and I have talked extensively with the 
U.S. Government, with European governments--pushing back 
against these efforts, making clear that there are 
repercussions for targeting journalists. Senator Kaine 
mentioned earlier perhaps use of the Magnitsky Act, which I 
would fully support, when journalists are pressured. Then 
finally, funding, because we can adapt, and we will, even if we 
lose our bureau in Moscow. Even if our journalists are not able 
to operate inside Belarus, we will adapt our programming and 
redouble our efforts to reach those audiences, but that often 
requires technology and new tactics which are expensive. So 
additional funding from the Congress would also go a long way 
towards ensuring that we can continue to be there for those 
audiences that need us more than ever in these increasingly 
difficult environments in both Russia and Belarus.
    Senator Shaheen. Thank you very much. We will take that 
back and try and act on that. I especially appreciate your 
appearing with the committee this morning, and also Mrs. 
Tsikhanouskaya for being with us, and we will continue to do 
everything we can to support your work in Belarus and the RFE/
RL across Europe and Asia. Thank you.
    The Chairman. Senator Coons.
    Senator Coons. Thank you, Chairman Menendez.
    My thanks to Ambassador Fisher and Mr. Fly for championing 
American values under these very difficult circumstances.
    Mrs. Tsikhanouskaya, thank you for your courage. Thank you 
for standing up for democracy and for fighting for the rights 
of the people of Belarus. They have certainly had a very 
difficult time under the dictatorship of Lukashenka and 
hopefully are ready to chart a new path and to make a break 
with what Lukashenka and his actions have shown, namely that in 
order to retain power, there are no lines he will not cross. 
This hearing is a reminder of how important bipartisan 
congressional delegations can be in bringing connections and 
information back to this committee and to this country and in 
advocating for the priorities that we shape here.
    President Biden is heading to his first overseas trip this 
coming week. He is meeting with officials from NATO, the EU, 
the G7, the UK, and I look forward to seeing his leadership in 
organizing the democracies of Europe to fight corruption and 
support independent media and defend democracy.
    I would be interested, if I might, Mrs. Tsikhanouskaya, in 
hearing from you about how you assess the extent of Russian 
influence in Belarus, how exactly it is exerted, and how 
Russian support of the Lukashenka regime is changing Belarusian 
civil society at this time.
    Mrs. Tsikhanouskaya. At the moment, the Kremlin supports 
Lukashenka politically and financially somehow. We want 
friendly relations with all the countries, including Russia, 
and propaganda is trying to show us that we are against Russia, 
but this is not true. We are against dictatorship, and it 
depends on the Belarusians when they will choose in free and 
fair elections.
    Senator Coons. Thank you, and thank you for your brave 
stand and for your service.
    Mr. Fly, could I just ask you what more we could do to 
support independent journalism in Belarus, and do you think we 
need to provide greater support for anti-censorship tools?
    Mr. Fly. Yes, I think additional support would be helpful 
for anti-censorship tools, for circumvention tools. I note in 
my testimony that it is only because of those tools at this 
point that we are able to provide access to our website in 
Belarus since last August. The authoritarian governments are 
always trying to find new ways to block even the circumvention 
tools, so additional support as well for the Open Technology 
Fund, which also receives its congressional appropriation 
through the U.S. Agency for Global Media, is in the interest of 
all of the broadcasters and independent journalists generally 
because, obviously, we can produce the best content, but if we 
cannot get it in front of our audiences, it is not going to 
have the desired impact.
    Senator Coons. Thank you. Thank you for what you are doing 
and for your persistence in the face of repression.
    Last, if I might, Madam Ambassador, I am just curious about 
how you are overcoming the challenges of leading Embassy Minsk 
without being in the country, and how the embassy is able to 
support and maintain its relationships with civil society in 
such a repressive context, if you are comfortable sharing some 
of that.
    The Chairman. We had excused the Ambassador already. If she 
is willing, I am happy to have her answer.
    Senator Coons. I apologize.
    The Chairman. It is okay.
    Ambassador Fisher. I am quite happy to answer, and I 
appreciate, Senator, very much the question.
    If I could, I would start by telling you that last week the 
regime announced that they were drawing down our mission in 
Minsk--that they were going to put a cap on the number of 
American diplomats who can serve there.
    I would like to acknowledge particularly for this committee 
just how difficult it is to serve in Minsk today. We have an 
incredible team there working very hard in support of the 
American citizens who are there, doing everything they can to 
work with civil society, the independent media, meet with the 
families and the representatives of those who are repressed. So 
this is incredibly important work.
    I think for my work, the challenge that I face is how are 
we collectively in the Government able to consolidate what we 
know and what we understand from all of the forces at work 
outside of Belarus and combine that with what we know from the 
inside. Lukashenka has done everything he can to keep these 
worlds separate, and our job is to work with our partners and 
our allies to develop an understanding of how we can be 
effective and how it is that we can help build to that new 
election, to that dialogue, and to the release of political 
prisoners and a new future for Belarus.
    Senator Coons. Thank you. Thank you very much.
    And thank you, Mr. Chairman.
    The Chairman. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Mrs. Tsikhanouskaya, tell us about your husband. We know 
that you were able to leave the country with your children. 
Tell us about the conditions that your husband is being held 
under in Belarus.
    Mrs. Tsikhanouskaya. In Belarus, people cannot communicate 
to political prisoners. They cannot call him or visit to them 
even if relatives are in Belarus. We communicate only through 
the wire. We send short messages to each other that are usually 
about children and parents and other stuff. Of course, how can 
people feel spending years in jail for nothing, for just having 
the strength to say words against Lukashenka? Morally, they are 
awful. Physically, more or less. But they are all detainees, 
they are all hostages, and they rely only on us, on the 
Belarusian people, on international community. They did 
everything they could, and now they cannot do anything at all.
    This is our task, to do everything possible to rescue those 
people. This is our task to prove that all of them can return 
home to their children, to their wives, to their parents, who 
will hug them. Thank you.
    Senator Markey. Thank you. What is your message to all of 
those brave young journalists in Belarus who are still trying 
to tell the truth about what is going on? What would be your 
message to those journalists?
    Mrs. Tsikhanouskaya. I want to say that journalists' work 
is very important, even in such dangerous situations such as 
Belarus, so please do not stop. While you are writing, while 
you are telling the truth, we are visible, and this visibility 
is very important. Take care of yourself. Use security, but 
write and show the truth to the world.
    Senator Markey. Thank you.
    And what is your message to those journalists right now, 
Mr. Fly?
    Mr. Fly. A number of those journalists are our journalists, 
so I am very worried about them on a daily basis, and we are 
doing everything we can to try to make them as safe as 
possible, giving them the tools to communicate securely and to 
continue to do their jobs.
    As has been noted in this hearing, it is almost impossible 
to do on-the-street journalism because of the laws that the 
regime has put in place. We have had journalists who literally 
stepped outside of their apartment to go run an errand and got 
arrested just for being near a protest. In some cases they were 
not even covering that particular protest. Any act that is seen 
as being related to doing journalism with a camera, even using 
a cellphone in a particular way, the authorities are actually 
using advanced technology to track people who are live-
streaming protests. It is incredibly dangerous work, so that 
community has found ways to adapt.
    So I am always impressed by the bravery and courage of all 
of our journalists, but especially our team in Minsk right now, 
who continue to operate under these challenges.
    Senator Markey. Thank you.
    Mrs. Tsikhanouskaya, you should just know that your courage 
and your husband's courage, your family's courage, has really 
shown a spotlight on the corruption in Belarus, and we are not 
going to go away. We are going to continue to pay attention. We 
are going to continue to shine a spotlight on the injustice 
which is now being perpetrated by the Government of Belarus. So 
just know that you have friends, more friends than you have 
ever had before. We are not going to go away.
    So thank you so much for your courage, and thank you for 
your husband and his courage as well. Thank you.
    Mrs. Tsikhanouskaya. Thank you, Senator.
    The Chairman. Thank you, Senator Markey.
    Let me just turn to Mr. Fly, and then we will wrap up this 
hearing.
    Can you give us an update on the latest on RFE/RL 
freelancer Vladyslav Yesypenko, who has been jailed and 
tortured in Russian-occupied Crimea? I know that you and Human 
Rights Monitoring Mission in Ukraine and the U.S. Mission to 
the OSCE have spoken out on his behalf. Is there a trial date 
that has been set? What else can we do to help secure his 
freedom?
    Mr. Fly. Thank you, Mr. Chairman, for asking about 
Vladyslav. I was in Kiev 2 weeks ago in part to talk to the 
Ukrainian Government about his case to try to raise awareness 
about his situation. He did testify when he first appeared at a 
public hearing that he had been tortured, that they had tried 
to force him to claim that he was working for Ukrainian 
intelligence instead of doing what we know he was doing, which 
was gathering information for our Crimea Realities Project of 
our Ukrainian service.
    We believe that he has been targeted by the Crimean 
authorities backed by the Russian FSB, and that obviously is 
incredibly concerning. So we hope that as the Biden 
administration engages President Putin and in other settings 
where hopefully Ukrainian officials will be able to talk to 
their Russian counterparts, that we can negotiate Vladyslav's 
release.
    He also has a wife and children who are waiting for him at 
home, and I also spoke recently to his wife, who is only able 
to communicate with him right now through the lawyer, just as 
many of the prisoners in Belarus. So we are very concerned with 
the uncertainty about his trial and how he will then be treated 
even once the trial is held.
    The Chairman. All right. We will follow up with the 
Administration.
    Lastly, Russian authorities often try to equate U.S. policy 
and regulations toward state-run broadcasters, like RT and 
Sputnik, with Russia's application of ``foreign agent'' laws to 
U.S. Government-financed media organizations like RFE/RL. What 
is wrong with this analogy?
    Mr. Fly. Thanks for that question. I have had these 
conversations with Russian officials in the past when I visited 
Moscow a bit over a year ago, and my response to them was that 
I wish we were treated the same way, because RT and Sputnik, as 
far as I know, have no limitations on their ability to access 
the American audience. Any American can watch RT on satellite 
or cable. Sputnik has concluded radio agreements with radio 
stations in the United States. RFE/RL, Voice of America, other 
U.S.-funded outlets lost all access to those platforms years 
ago, earlier in the Putin tenure, which is why we have turned 
to online to reach audiences, and we have been incredibly 
successful, nearly doubling our audience in Russia over the 
last 5 years.
    It is now that online audience that the authorities are 
trying to target with the foreign agent labeling requirements 
they tried to impose on us, which we have refused to comply 
with. So although the Kremlin propaganda says that they are 
just doing to RFE/RL what the Department of Justice does to RT 
and Sputnik, that is fundamentally untrue and not the case.
    The Chairman. I asked you the question knowing the answer, 
but I think it is important that we establish it for the record 
that there is a fundamental difference. In an open society as 
we are, we permit even those adverse entities, like RT and 
Sputnik, to engage freely in our society, and we take the 
associated risk, but we do not get the commensurate response in 
totalitarian/authoritarian governments, so this is the 
challenge.
    I want to thank all of our witnesses today, the Ambassador 
who is still here listening to both of your testimonies; Mrs. 
Tsikhanouskaya for your courage, bravery, and for your 
advocacy. You are an example not just for Belarusians, but for 
others in the world. Mr. Fly, to you and the men and women of 
your journalism, who with their pen send a beacon of hope and 
information to people across the globe and in places where they 
do not have that opportunity to independently understand what 
is happening in their own country and in their region. These 
are extraordinary people, and I want you to know you have the 
thanks of the committee for your respective endeavors.
    We will follow up on some of these initiatives to see if we 
can hasten the day when Belarusians can determine their own 
future, that we will hasten the time in which journalists will 
be able to exercise their profession, and if we can get 
Ambassador Fisher to her post in Belarus.
    So, thank you all.
    This hearing's record will remain open until the close of 
business tomorrow.
    And with the thanks of all of the members of the committee, 
this hearing is adjourned.
    [Whereupon, at 11:51 a.m., the hearing was adjourned.]

                                  <all>
</pre></body></html>
